<html>
<title> - SECURITY CHALLENGES INVOLVING PAKISTAN AND POLICY IMPLICATIONS FOR THE DEPARTMENT OF DEFENSE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                         [H.A.S.C. No. 110-94] 

SECURITY CHALLENGES INVOLVING PAKISTAN AND POLICY IMPLICATIONS FOR THE 
                         DEPARTMENT OF DEFENSE

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 10, 2007

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                         IKE SKELTON, Missouri
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK UDALL, Colorado                 MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK J. MURPHY, Pennsylvania      MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     BILL SHUSTER, Pennsylvania
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN GILLIBRAND, New York         K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                Julie Unmacht, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                   Margee Meckstroth, Staff Assistant



















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, October 10, 2007, Security Challenges Involving 
  Pakistan and Policy Implications for the Department of Defense.     1

Appendix:

Wednesday, October 10, 2007......................................    45
                              ----------                              

                      WEDNESDAY, OCTOBER 10, 2007
SECURITY CHALLENGES INVOLVING PAKISTAN AND POLICY IMPLICATIONS FOR THE 
                         DEPARTMENT OF DEFENSE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     1
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Curtis, Lisa, Senior Research Fellow, Asian Studies Center, the 
  Heritage Foundation............................................    12
Haqqani, Husain, Director, Center for International Relations, 
  Boston University, and Senior Fellow, Hudson Institute.........     9
Schaffer, Ambassador Teresita C., Director, South Asia Program, 
  Center for Strategic and International Studies.................     5
Weinbaum, Dr. Marvin G., Scholar-in-Residence, Middle East 
  Institute......................................................     7

                                APPENDIX

Prepared Statements:

    Curtis, Lisa.................................................    88
    Haqqani, Husain..............................................    72
    Hunter, Hon. Duncan..........................................    49
    Schaffer, Ambassador Teresita C..............................    55
    Weinbaum, Dr. Marvin G.......................................    64

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]
SECURITY CHALLENGES INVOLVING PAKISTAN AND POLICY IMPLICATIONS FOR THE 
                         DEPARTMENT OF DEFENSE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, October 10, 2007.
    The committee met, pursuant to call, at 10:10 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, the hearing will come 
to order. I wish the staff will note that the gavel comes down 
now as opposed to a few moments ago when we made the 
announcement that it would be delayed a few minutes.
    First, I would be remiss if I did not mention our late 
colleague and our friend, the gentlelady from Virginia, Jo Ann 
Davis. She was a loyal member of this committee, a good friend 
to us, one who represented her district and cared for those in 
uniform so well, a strong advocate for shipbuilding, which was 
the centerpiece for the district she represented, and her loss 
is a loss to not just this committee or Congress, but to our 
country. We are very sad about this, but we all know she did 
fight the good fight over a good period of months and caused us 
to have great admiration for her, and she will be missed. As 
you know, the memorial services will be held tomorrow at her 
home in Virginia.
    I would yield at this moment to my friend from California 
and the Ranking Member, Duncan Hunter, for any comments he 
might have regarding Jo Ann Davis.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Well, thank you, Mr. Chairman.
    Mr. Chairman, it is a sad time when we mourn the death of a 
colleague, and when you think about Jo Ann Davis, I think about 
two things. I think about her as a person who was a tireless 
and a faithful fighter for her constituents, and as somebody 
who was extremely tough in a political fight, but always 
straight ahead, always with strong principles, strong views and 
an intense loyalty to her allies and to the principles that she 
believed in, and also was a very compassionate person toward 
those who she felt needed help. And I have always thought of Jo 
Ann as the consummate supporter of the underdog, the person who 
would take a position and fight that position out, even if she 
were the only vote in the room for that particular position, 
because of her principles.
    And, you know, people leave a lasting impression on you 
here in this committee, and perhaps the relationships and the 
friendships that we have are the most important part of serving 
on this great Armed Services Committee. This was a gentlelady 
who loved the people, who wore the uniform of the United States 
and served them and served her constituents, had maybe that 
character that we all aspire to of being a faithful servant.
    Mr. Chairman, this is a very sad time for us, and I know 
that the House leadership has announced that there will be a 
number of Members going down to the services, and so I would 
recommend to everybody that everyone avails themselves of that 
information and, in the least, perhaps will send a card to 
Chuck--to Jo Ann's husband--and let him know how very, very 
much we appreciated her.
    And I know there are hundreds of thousands of people in her 
district who appreciated her so much because of how she served 
them, but I want to let you know that I really--and I am sure 
all of the members on this committee appreciated her great and 
sparkling personality, her adherence to principle, and her 
vitality and all of the energy that she brought to the 
political contest in this great forum every day. So, again, I 
urge all members to jot down a letter, if you can, or a note.
    Mr. Chairman, I wonder if any members of the Virginia 
delegation would like to make a statement at this time. I know 
they are all very much impacted by this loss.
    The Chairman. Yes. The gentlelady from Virginia.
    Mrs. Drake. Thank you, Mr. Chairman, and thank you for the 
opportunity to talk about a dear friend of mine, Jo Ann Davis.
    I think all of you who participate in this committee, who 
watch this committee, know that Jo Ann was a person of great 
faith, great courage, great principle, and she cared very much 
about other people. And I believe that it was never Jo Ann's 
intent to end up in the greatest legislative body in the world, 
but it was her life's work of caring about other people, that 
the people of her district trusted her and sent her here, and 
that there is one thing you would say about Jo Ann Davis: Every 
single thing that she did was based on her principles, her 
belief system, and she was absolutely willing to stand up and 
fight.
    She confided in me that she believed she would beat this 
cancer--she did the first time around--but that she felt she 
was going through this in order to help other people and to 
raise awareness and to make sure that other women did put 
things aside and have the treatment they needed. That is so Jo 
Ann Davis.
    So we all mourn her loss. We extend our sympathy to her 
family, and I know this committee will greatly, greatly miss 
her.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. The Members will note that there 
was a resolution honoring the memory of Jo Ann Davis yesterday, 
and I know some here participated in addressing that.
    We have a new member of our committee, a gentleman from 
Colorado, who has been approved by the Republican Conference, 
and I would like for him to be welcomed: Doug Lamborn from the 
great State of Colorado.
    Stand up, so we will see who you are.
    Thank you so much for joining us, and we know that there 
will be a lot of work ahead of you. We welcome you.
    There is also a temporary member who will be with us from 
time to time. Jim Langevin, who is a former permanent member of 
this committee, will join us from time to time.
    Ladies and gentlemen, we meet today to address security 
challenges involving Pakistan. This is an important hearing, 
and it could not be more timely.
    For too long, Iraq has been preoccupying us away from 
evolving security concerns and potential conflicts in other 
parts of the world that are vital to us. We must have a broader 
strategic focus and a stable democratic and prosperous Pakistan 
actively working to counter terrorism, and we must have 
Islamist militants who could be extremely valuable as a 
partner. Yet the country still faces serious security 
challenges that demand our active attention and engagement.
    I am concerned that our policy toward Pakistan has not been 
as comprehensive as it should be, that we may be unprepared to 
handle any repercussions if events in Pakistan continue to move 
as rapidly as they have in recent years. Recent testimony 
before this committee on global threats and a substantial 
unclassified national intelligence effort confirmed that al 
Qaeda has become progressively active in western Pakistan, 
where they are determined to be enjoying a safe haven. Bin 
Laden's lieutenants are still believed to be in that region.
    Moreover, the U.S. Commander for Counterterrorism 
Operations in Afghanistan, Major General David Rodriguez, 
recently blamed a growing al Qaeda presence in Pakistan for an 
estimated 50 to 60 percent increase in foreign fighters 
infiltrating into Afghanistan. At the same time, internal 
instability in that country has been on the rise since 2007, 
fueled by the lethal attacks within the country from Islamist 
militants and the political crisis surrounding President 
Musharraf's run for reelection. Americans have provided 
Pakistan with about $10 billion in assistance since 9/11, yet 
many experts argue that such assistance has not been well 
targeted.
    I am pleased to have some of the country's top experts with 
us today: Ambassador Teresita Schaffer from the Center for 
Strategic and International Studies; Dr. Marvin Weinbaum from 
the Middle East Institute; Lisa Curtis with the Heritage 
Institute; and the gentleman, who evidently is caught in 
traffic, Husain Haqqani with Boston University. He, hopefully, 
will join us momentarily.
    We welcome you. We thank you for your expertise in sharing 
your thoughts with us today. This is a very, very important 
hearing for us, and we thank you for being with us.
    Mr. Hunter.
    Mr. Hunter. Well, thank you, Mr. Chairman, and thanks for 
calling this very important hearing today. It is one that is 
critical to America's efforts in a very, very important part of 
the world.
    Before I make my comments on the hearing, Mr. Chairman, let 
me just also thank you for welcoming Doug Lamborn, and I am 
joining your welcome to our new member, and I will remind my 
colleagues that he comes from that 5th District in Colorado 
that was held by our great colleague Joel Hefley. And he has 
big shoes to fill, but I know that he will do a great job in 
filling those shoes.
    He served in the Colorado state legislature, in the house 
and in the senate, and he comes to us with lots of legislative 
experience and with a strong advocacy of our men and women in 
uniform. That is very important to him, so it is absolutely 
appropriate that he serves on this committee.
    Mr. Chairman, also, he is married to Jeanie, and they have 
raised five children, including one daughter who recently 
married, and they have four sons. And so I would like to also 
join in welcoming our newest colleague, Doug Lamborn.
    Thank you very much.
    The Chairman. Thank you. Thank you, Mr. Hunter.
    Mr. Hunter. Mr. Chairman, let me just say to our guests, I 
thank them for being with us on this very important issue.
    You know, since September 11th, President Musharraf's 
decision to join the United States in the war on terror was 
very welcomed. Pakistan has been a key ally of the U.S., a very 
valuable strategic partner, and today it supports U.S. and 
North Atlantic Treaty Organization (NATO)-led military 
operations in Afghanistan and makes a lot of contributions and 
some sacrifices against extremism and militancy. These efforts 
have resulted, we all know, in a number of al Qaeda and Taliban 
leaders killed or captured in Pakistan.
    In addition to its counterterrorism efforts, Pakistan has 
made progress on its eastern border with India. Tensions 
between the two countries have noticeably decreased due to 
confidence-building measures, and Pakistan and India are both 
committed to taking steps toward resolving the historical 
animosity that exists over Kashmir.
    I am interested in your thoughts, incidentally--to our 
guests--regarding the U.S. role in the Indo-Pakistani dialogue 
process, and although we have had a lot of positive dividends 
during the last six years, I think we also have to recognize 
that we have had some troubling developments.
    In July, this committee heard from intelligence officials 
who assessed that the al Qaeda terrorist network had become 
progressively active in western Pakistan, where they have what 
has been called a ``safe haven.'' For the last eight months, I 
have expressed my concerns over such developments and the 
internal challenges facing Pakistan's leaders, military, and 
people.
    Today I would like to get your views on the following: One, 
on the security front, al Qaeda's exploitation of the September 
2006 Tribal Peace Agreement in Waziristan, which allowed some 
of the top al Qaeda leadership to hide out, operate, and plan 
to the status of Taliban entrenched along the Afghanistan-
Pakistani border and Balukistan regions; the impact on military 
operations in Afghanistan; and three, the status of the safety 
and the security of Pakistan's nuclear materials and 
technologies.
    On the political front, the current and evolving political 
environment from the recent reelection of President Musharraf 
on Saturday and the surrounding circumstances; and, two, the 
likelihood that the political power equation in Pakistan will 
change and what that could mean for the U.S.-Pakistan security 
relationship.
    So, if you could talk about that a little bit, we would 
certainly appreciate it. Although we on the Armed Services 
Committee are reviewing and understanding this political 
dynamic, reviewing this with you will help us assess how it 
relates to the willingness, capacity, and capabilities of the 
Pakistan government to address the extremism that resides on 
its soil as well as other strategic challenges it deals with in 
the region.
    I think it is important to recognize that, weeks after the 
July release of the U.S. National Intelligence Assessment on 
terrorist threats to the homeland and the storming of 
Islamabad's Red Mosque, President Musharraf increased pressure 
on the extremists residing in the tribal areas and declared 
that Pakistan will not tolerate the al Qaeda sanctuary by 
moving two Pakistani army divisions into the Federally 
Administered Tribal Areas, the so-called FATA, and one of those 
divisions, I believe, coming off the Indian border. There are 
now approximately 100,000 troops from the Pakistani Army and 
Frontier Corps conducting counterinsurgency operations.
    Also, folks, if you could speak to the posture of that 
corps, because there has been information that I have seen to 
the effect that most of that corps resides in garrison, and it 
is not undertaking what one might call ``aggressive 
operations.''
    President Musharraf is also committed to increasing 
development assistance to complement this military offensive. 
So we are interested in your assessments of these operations.
    So thank you for being with us today. I know you have got a 
lot of territory to cover, so I will submit the rest of my 
statement for the record.
    Mr. Chairman, I look forward to the discussion. It is 
absolutely timely, and I want to thank our witnesses.
    The Chairman. I thank the gentleman, and the balance is 
accepted without objection.
    [The prepared statement of Mr. Hunter can be found in the 
Appendix on page 49.]
    The Chairman. We welcome you. Our panel is complete. We 
appreciate your being with us so much. I hope you can do your 
best, as witnesses, to condense your testimony. It does not 
have to quite be in 25 words or less, but as you see, we have a 
large turnout of members, and I know folks do wish to ask 
questions, and we are bound by the 5-minute rule here, and if 
you could do your best to summarize, that would be quite 
helpful. So we welcome you.
    Ambassador Schaffer, we will start with you, please.

 STATEMENT OF AMBASSADOR TERESITA C. SCHAFFER, DIRECTOR, SOUTH 
  ASIA PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Ambassador Schaffer. Thank you, Mr. Chairman, and thank you 
for inviting me to testify this morning.
    I am sure every witness who has spoken to you about 
Pakistan in the past six years has used the words ``critical 
time.'' I am not going to break that pattern. It is a critical 
time in a country that matters profoundly to U.S. security.
    In the past six months, President Musharraf has been 
seriously weakened. The major non-religious political figures, 
in my view, have been diminished, and the U.S. has been 
publicly involved in the dealmaking leading to Pakistan's next 
government. The biggest security challenge for the United 
States, however, comes from the newly emboldened violent 
extremists who are challenging the authority of the Pakistani 
state. U.S. policy needs to address both the decline in 
political legitimacy and the problems posed by violent 
extremists.
    I expect that Musharraf's election last weekend will 
eventually be confirmed by the Supreme Court and that 
legislative elections will be held in January. The government 
that follows these elections is likely to be an uneasy one. 
Musharraf will be one power center. He believes in unity of 
command, as he has often told us, and is not particularly 
interested in power sharing. Both his political party and, 
perhaps, the army will be strongly tempted to manipulate the 
election to minimize Ms. Bhutto's claim on power. If she does 
participate in government, she will strongly defend her turf, 
and assuming that Musharraf retires from the army, that 
institution will be under new leadership and will be a distinct 
power center no matter how careful Musharraf has been to 
promote officers loyal to himself.
    I want to focus on the government's biggest challenge, a 
nasty and violent campaign by extremists, both those connected 
with the Afghan Taliban and homegrown movements that had been 
brazenly defying the government's authority last summer at the 
Islamabad Red Mosque. The death toll since July is at least 
several hundred. State authority looks weak, and the army, I 
regret to say, looks inept.
    An effective response to this kind of campaign requires a 
canny mixture of military and political tools. In the past year 
we have seen no evidence that the Pakistan army has adequate 
counterinsurgency skills. One expert whom I respect very much 
claims that the way they are trained is almost the opposite of 
how one needs to operate in a counterinsurgency environment, 
nor have we seen any indication of the government's having the 
political tools needed to integrate the tribal areas into 
Pakistan.
    I support the Administration's request for development 
funds for the tribal areas, but this will be the work of a 
generation, and in the meantime, the Pakistan government and 
army will probably hedge their bets, a tactic that, I doubt, 
can work. In other words, where the U.S. is hoping for 
boldness, I fear it may get caution.
    The position of the U.S. in Pakistan makes this 
particularly dangerous. The U.S. has become a symbol of 
opposition to Musharraf, and people are talking about 
Afghanistan as ``America's war.'' This is a fundamentally 
wrong-headed notion, but the thing that is dangerous for us is 
that it sets the U.S. up to be blamed for all of the 
shortcomings of this next government. We urgently need to 
reposition the United States so that this government and its 
eventual successor can work with the United States without 
risking its political life. How can we do this?
    I would start with forthright support for genuinely free 
and fair elections. Do not make excuses for the repressive 
actions of the government, which, I fear, may increase over the 
coming months. Give high priority to economic assistance, and 
use it in ways that benefit people. The greatest boost to our 
national standing in Pakistan in recent years came when the 
United States responded with such speed and dedication to the 
earthquake in Kashmir. The military played a critical role 
there. The watchword should be that the United States wants a 
relationship with Pakistan that can continue from one set of 
leaders to another.
    The second big recommendation is to work with the military 
on military issues, including whatever help we can provide to 
beef up their shortcomings in counterinsurgency, but do not 
build up its political role, and emphasize the primacy of 
civilian leadership.
    Finally, I believe the United States needs to give top 
priority to developing a common strategy with Pakistan on 
Afghanistan. This is needed not just for Afghanistan, but also 
for the stability of Pakistan, which is fundamental to our 
long-term interests in the region.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady.
    [The prepared statement of Ambassador Schaffer can be found 
in the Appendix on page 55.]
    The Chairman. Dr. Weinbaum, please.

  STATEMENT OF DR. MARVIN G. WEINBAUM, SCHOLAR-IN-RESIDENCE, 
                     MIDDLE EAST INSTITUTE

    Dr. Weinbaum. Thank you, Mr. Chairman.
    Members, if I had appeared before you a number of months 
ago and had said that most of us who look at Pakistan believe 
at this point in time that Pakistan has in the Northwest 
Frontier Province, the Northwest Frontier area, lost the battle 
against extremism and terrorism, I think I might have raised 
some eyebrows. Given the media coverage and some of the 
comments that Ambassador Schaffer has made, I am sure now, 
however, that there is a great deal of credibility in that, and 
the consequences, as we have recognized here, are quite 
considerable for the United States, for our success in dealing 
with the insurgency in Afghanistan, in stabilizing that country 
and, of course, in uprooting the al Qaeda network.
    The spread of Islamic extremism in Pakistan and, I might 
mention, the consequences, as you have already heard, for 
Pakistan, its stability, its integrity, are really tied up with 
what happens in that tribal region. My written statement 
suggests how we got to this point and indicates how this has 
been an evolving situation, in fact, beginning in the 1980's. 
What I want to stress here today are some of the options in 
policies that we might and Pakistan might follow.
    Clearly, now, at this point, I think we have come to see, 
as the situation has worsened in Afghanistan, that we have put 
additional pressure on President Musharraf. Let me suggest, 
however, that increasingly this pressure has been 
counterproductive. Actions taken by President Musharraf have 
not only fallen short, but have had the double-barreled effect 
of intensifying opposition within the frontier region and also 
eroding his political support in the country. We have seen now, 
additionally, the political problems of President Musharraf's 
during this year, and that has distracted him further from 
dealing with the great challenges that the frontier presents.
    I might mention also that it is very interesting to see in 
this election period, as this election gamesmanship has been 
going on, how little attention is being paid to extremism. 
Indeed, most of the political parties have dodged the issue.
    Well, let me suggest that there are very few good options 
here, at least in the short term, but let me indicate that, of 
course, one option for Pakistan is to revive its military 
effort, to commit itself to a more aggressive approach. The 
recent setbacks that the military has suffered might, you would 
imagine, have stiffened the resolve of the Pakistan military; 
after all, it is a very proud military. And as to the fact that 
they have been humiliated consistently here, most recently with 
the kidnapping of several hundred of their troops, possible 
desertions as well, this should have a positive effect in 
getting them, as I say, to take a more aggressive position.
    The imminent new head of the military, General Kiani, is 
known as a very forthright general, and certainly he may step 
up to it, up to the task. But let me say that, for a more 
effective military posture, we are basically dealing with the 
fundamental weakness that the Pakistan military faces--a 
weakness of training, a weakness of equipment, and, yes, a 
weakness of motivation. This is not going to be overturned 
easily or soon. And, of course, I should mention this 
connection of the difficulty, as well, when it comes to the 
fact that so much of what this is going to require here is 
going to require a different public mood in Pakistan. At the 
moment, although there are many in Pakistan who certainly do 
not accept the militants' extremist views and their actions 
against the army, nevertheless, that distinction here has not 
been made strong enough that, in fact, this is their war and 
not a war carried on on the behalf of the Americans.
    A second approach here is to negotiate a settlement here, 
and ultimately this is what we are going to come to. There is 
going to be some kind of agreement. It may not be an agreement 
that we would particularly find desirable, because, I think, 
the point that has to be made here is that this struggle which 
is going on in the frontier is not really on our behalf. This 
is a struggle because the Pakistan state has been challenged. 
It has been challenged, and, as I say, it is a very serious 
challenge. So what we are seeing here is an ineffective 
response, for the moment, to this challenge. It has very little 
impact, unfortunately, on what is going on in Afghanistan. I 
want to come back to that.
    Also, as my written testimony demonstrates, we have to 
accept the fact that the agreement is going to be made out of 
weakness, not out of strength, and, in fact, the people we are 
negotiating with are not the traditional leaders. Those leaders 
are, by and large, gone. They have been killed. They have run 
away. So, although this ultimately is going to be what is the 
result of this campaign, nevertheless, it is not necessarily 
going to be in our good interest.
    I think, also, another way to deal with this would be for a 
delivery of social services, justice and security for the 
people of the FATA, the Federally Administered Tribal Areas, a 
channeling of development, and, as you have heard, the United 
States has now committed itself to $750 million for this 
purpose. Unfortunately, I think, if it is not too little, it 
certainly is too late. The Pakistanis asked for this kind of 
support in 2002, and we were too wrapped up with the notion 
here that the only thing at issue here was counterterrorism, 
and we failed to do it. Now we are doing it, but the difficulty 
is obviously in delivery. At this point in time, without a more 
secure security situation, it is doubtful that that can be 
delivered.
    A fourth way of going about this would be to build a 
national mandate in Pakistan for directly confronting 
extremism. Right now that mandate does not exist. As you have 
heard, the people of Pakistan really think that, for the most 
part, what is going on there is Pakistani killing Pakistani, 
and again, as I mentioned before, it failed to recognize how 
much this is something that is critical to the future of the 
Pakistan state, a state which is already a weak nation.
    The view here is that extremism can be best faced through 
democracy, and I certainly subscribe to that. I believe this is 
necessary on its own basis, regardless of whether there was a 
military challenge in the frontier, but I think we also have to 
look at this soberly to recognize that a coalition government 
may not be in a better position, itself, to deal with the 
challenges militarily that are presented in the frontier. It is 
ultimately going to take the military's willing capacity 
together with, of course, the kind of development I have been 
speaking about.
    Finally, here in--the possible options here--and that is 
working more closely with the United States. We suggested 
publicly not too long ago that perhaps what we ought to do is 
to now, perhaps, unilaterally intervene where we feel that we 
have targets to attack. This has not played well in Pakistan. 
We had better recognize this and that this, in fact, could make 
the situation politically even worse for President Musharraf.
    Now, finally, then, what I want to say is that we have no 
really short-term answers here, but we have, I am afraid, only 
one good option, and that is to use our own efforts here to 
interdict the infiltrators, the people who are the suicide 
bombers who are bringing in the explosive devices into 
Afghanistan. What I am getting at here is that our only option 
here is to fortify ourselves to redeploy a larger number of 
troops into the frontier area on the Afghanistan side. This is, 
I am afraid, in the short and medium term, going to be our only 
possible option. This has got to go along, however, at the same 
time, in that there is no simple military solution in 
Afghanistan either, with accelerated development, with better 
governance, and, of course, with a more realistic strategy in 
dealing with the poppy crop. In this, Pakistan will continue to 
have a role, but I guess where I come out on all of this is 
that the U.S. is going to have to readjust its expectations 
about what Pakistan is willing and is able to accomplish for us 
in this already explosive tribal frontier.
    Thank you.
    The Chairman. Thank you, Doctor.
    [The prepared statement of Dr. Weinbaum can be found in the 
Appendix on page 64.]
    The Chairman. Mr. Haqqani, please.

STATEMENT OF HUSAIN HAQQANI, DIRECTOR, CENTER FOR INTERNATIONAL 
    RELATIONS, BOSTON UNIVERSITY, AND SENIOR FELLOW, HUDSON 
                           INSTITUTE

    Mr. Haqqani. Thank you, Mr. Chairman.
    As a Pakistani currently living and teaching in the United 
States, I bring to this committee a deep commitment to close 
and friendly relations between Pakistan and the United States.
    The first point I would like to make is that U.S.-Pakistan 
relations have usually been cyclical in nature. They have 
started with great hopes, and they have ended in great 
disappointment. During the period of great hope, the United 
States has invested large sums of money in terms of aid, and 
then in the period of disappointment, on the American side, the 
attitude has been, We spent so much money; what did we get for 
it? On the Pakistani side, the feeling has been that the United 
States is about to walk away from us once again. I think that 
the current situation is one in which the first thing we should 
all be clear about is that that cyclical pattern needs to be 
broken.
    Since 1954, the United States has given large amounts of 
aid to Pakistan off and on, and the bulk of that aid has gone 
to the Pakistani military. The assumption always has been that 
the aid that goes to Pakistan buys the United States influence 
with the most influential institution in Pakistan, namely, the 
Pakistani army. Just the statistics would give an idea to this 
committee that, since 1954, almost $21 billion has been given 
to Pakistan in aid, including the amount that has not yet been 
disbursed but that has been budgeted for 2008. Of these, $17.7 
billion was given under military rule, and only $3.4 billion 
was given to Pakistan under civilian governments.
    As Pakistan moves toward some civilianization of its 
government, it is important to bear that in mind that this 
identity of the United States with military rule should now 
end, and if assistance has to be provided to Pakistan, 
assistance should continue under civilian rule as much as there 
has been under military rule. If we have failed in getting our 
objectives to the military government under General Musharraf, 
we should recognize our mistakes but not penalize the people of 
Pakistan under a civilian government for doing that. On 
average, the United States has given Pakistan $559 million for 
each year that Pakistan has been under military rule, and it 
has given Pakistan only $181 million for each year it has been 
under civilian rule. This is, of course, not to say that the 
civilian governments have been more competent than the military 
regimes. The question of which form of government has suited 
Pakistan better is something that Pakistanis debate on a daily 
basis, but from the U.S. point of view, Pakistan now is at a 
point where the long-term issues of the Pakistani state's 
effectiveness need to be addressed.
    The reason why the Pakistani army is failing in the 
Federally Administered Tribal Areas is because the Pakistani 
state no longer has the level of effectiveness that a state of 
that size should have in dealing with problems like an 
insurgency, with non-state actors like al Qaeda having greater 
influence in some parts of the tribal areas than the state of 
Pakistan does. I think that the U.S. policy should be one of 
nuanced engagement with Pakistan. The engagement should 
continue. The U.S. should ensure that the leverage that it has 
bought is put to good use.
    What should it be put to use for? It should be put to use 
for a strong military effort backed by civilian support. What 
has been lacking so far is civilian support. General Musharraf 
has totally failed in mobilizing civilian support for the war 
against terrorism in Pakistan. Pakistani civilian support for 
the war is absolutely necessary. It may not come overnight, but 
I think the U.S. needs to identify civilian partners who will 
be able to provide that support.
    At the same time, it is also important for the United 
States to use the leverage it has built with the Pakistani 
military, not to just consistently praise the Pakistani 
military and in the process reinforce the prejudices of the 
Pakistani military that have led them to take part in four 
military coups in Pakistan's short history of 60 years. 
Instead, every interaction, whether at the civilian diplomatic 
level or at the military-to-military level, should be used to 
convince the Pakistani military that it is as much part of the 
problem as it is part of the solution.
    On the specifics that are of concern to this committee, the 
problems in the Northwest Frontier Province and the problems in 
the Federally Administered Tribal Areas, I believe that the 
Pakistani military is facing a serious crisis not just of 
training, equipment, and motivation, but of morale. These large 
numbers of troops who are virtually surrendering themselves to 
the insurgents in Waziristan without putting up a fight would 
not have done so if they were not conflicted within themselves, 
and that conflict comes from a belief system after years of 
having been told that the Jihadists represent a force for good. 
Now that they are being told to fight them, some of them are 
not able to make that transition as quickly as General 
Musharraf was able to make after 9/11 with a phone call from 
Washington, D.C.
    I think, there, a major input needs to be made not only of 
development funds, but of a major initiative to try and 
persuade people in the tribal areas that the Jihadists do not 
represent a force for good for them or for Pakistan.
    Last but not least, as Pakistan's transition becomes 
apparent, the U.S. must make sure that General Musharraf does 
not wiggle out of his promises about shedding his uniform. The 
new vice chief of army staff, who is likely to become the next 
chief of army staff, is a person who is absolutely committed to 
the notion of civilian control over military matters. He does 
not like the military being involved in politics. At least, 
that is his stated position.
    I think that the United States has a role to play in 
ensuring that General Musharraf adheres to the promises he has 
made to the Supreme Court of Pakistan and to Pakistan's largest 
political party in the negotiating process that has taken place 
between General Musharraf and the Pakistan People's Party, and 
the process of national reconciliation that is set to have been 
started should now expand to include other groups, including 
the Pakistan Muslim League led by Mr. Nawaz Sharif, so that 
Pakistan civilians and Pakistan's military are not at 
loggerheads with each other, but actually work together. Just 
as we all know, no military can actually wage a successful 
military effort without the backing of the nation. If the 
Nation is conflicted, the military effort suffers, and the same 
is happening in Pakistan right now.
    Thank you very much.
    The Chairman. Thank you so much.
    [The prepared statement of Mr. Haqqani can be found in the 
Appendix on page 72.]
    The Chairman. Ms. Curtis.

STATEMENT OF LISA CURTIS, SENIOR RESEARCH FELLOW, ASIAN STUDIES 
                CENTER, THE HERITAGE FOUNDATION

    Ms. Curtis. Chairman Skelton, Congressman Hunter and 
distinguished members of the committee, thank you for inviting 
me to appear today. It is an honor to testify on a topic of 
such immense importance to our country.
    Pursuing a strong and stable relationship with Pakistan 
will be one of America's most important foreign policy 
objectives for several years to come. The range and complexity 
of issues involved in our relations require focused and 
sustained U.S. attention. Recent developments, however, are 
threatening to create misunderstanding between our two 
countries and to derail this critical partnership.
    Pakistani failure to control a burgeoning terrorist safe 
haven in its tribal areas bordering Afghanistan is causing 
alarm in Washington, while recently passed U.S. legislation 
conditioning military assistance to Pakistan is causing doubts 
about the U.S. as a reliable long-term partner.
    In order to sustain the U.S.-Pakistan partnership over the 
long-term, we need to better align our strategic perspectives 
of the region. We should not repeat mistakes of the past. A 
second breach in the relationship, like that caused by the 
Pressler Amendment that cut off U.S. aid to Pakistan in 1990, 
would seriously jeopardize U.S. interests in South Asia and 
would have severe implications on the global fight against 
terrorism.
    Pakistan is in the midst of an historical political 
transition that will determine the core direction of the 
country at a time when extremists are seeking to provoke an 
Islamic revolution. Washington should welcome the transition to 
civilian democratic rule.
    Pakistani frustration with prolonged military rule and the 
perception that Washington is more interested in preserving 
Musharraf's rule than in restoring democracy is eroding popular 
support for the broader fight against terrorism. A recent poll 
taken by the U.S. organization Terror Free Tomorrow shows that 
an overwhelming majority of the Pakistanis do not view the 
fight against terrorism as benefiting their country, nor do 
they see defeating al Qaeda as a priority for their leaders. 
Instead, they blame the recent violence in Pakistan on its 
counterterrorism cooperation with the U.S., and they 
increasingly question the benefits of continuing to support 
U.S. efforts that, in their opinion, rely too heavily on 
military force.
    In what may prove to be a major blow to the terrorists in 
the region, Pakistan reported killing possibly 200 militants in 
clashes this past weekend in North Waziristan. The capture of 
over 240 Pakistani soldiers in late August, as Marv pointed 
out, demonstrates, however, the complexity in dealing with the 
terrorists in the border areas where the local populations 
share a Pashtun identity with about 30 percent of the Pakistan 
army.
    Washington and Islamabad need to work more closely in joint 
efforts that bring U.S. resources and military strength to bear 
on the situation in North and South Waziristan. They need to 
employ a combination of targeted military operations and 
economic assistance programs that drive a wedge between the 
Pashtun tribal communities and the international terrorists. 
Washington's pledge of $750 million over the next 5 years to 
develop the tribal areas is certainly welcomed, but Pakistan 
will have to restore the writ of the government before the aid 
is disbursed, to ensure it does not fall into the wrong hands. 
The Reconstruction Opportunity Zone Initiative is also an 
integral part of our overall strategy to uproot terrorism from 
the border areas. The Administration and Congress should work 
together to launch this project as soon as possible.
    Another obstacle to dealing with the terrorist safe haven 
in the tribal areas is Washington's and Islamabad's differing 
perspectives on Afghanistan. Pakistan and the U.S. share the 
overall goal of bringing stability in Afghanistan, and they 
agree that the Taliban's resurgence in Afghanistan would have a 
blow-back effect in Pakistan. However, for a variety of 
reasons, including Pakistani doubts about the U.S. long-term 
commitment to the region and Islamabad distrust of the Karzai 
government, Islamabad is reluctant to crack down fully on the 
Taliban and the other extremists operating from its territory. 
This means that the U.S. will have to take a more proactive 
role in promoting better Pakistan-Afghanistan relations and 
prod both countries to cooperate in areas such as border 
monitoring and trade, but also address longstanding political 
tensions. The Afghanistan Freedom and Security Support Act of 
2007 that passed the House and is now before the Senate 
acknowledges this and authorizes the President to appoint a 
special envoy to promote closer Pakistan-Afghanistan 
cooperation.
    It is also critical that India and Pakistan maintain 
momentum in their peace process. One reason for continued 
Pakistani ambivalence toward the Taliban stems from the concern 
that India is trying to encircle it by giving influence in 
Afghanistan.
    Last, I believe that conditioning U.S. assistance to 
Pakistan sends a negative signal at a time when we need to 
demonstrate that the fight against terrorism is a joint 
endeavor that benefits Pakistan as much as it does the U.S., as 
well as the global community. The abrupt cutoff of the U.S. aid 
to Pakistan in 1990 convinced Pakistanis that the U.S. is a 
fickle partner and uncommitted to the region. Conditioning 
assistance now only fuels that perception, as well as the idea 
that Pakistan is fighting terrorism under coercion, rather than 
to protect its own citizens.
    That concludes my remarks. Thank you.
    The Chairman. I thank the gentlelady very much.
    [The prepared statement of Ms. Curtis can be found in the 
Appendix on page 88.]
    The Chairman. Can anyone tell me how the Pakistani army or 
military is recruited? Do they have a draft, or is it all 
volunteer?
    Dr. Weinbaum. Volunteer.
    Ambassador Schaffer. It is an all-volunteer force, sir. It 
is recruited--much, though not all of it, is recruited from 
certain parts of the country, particularly the central part of 
the province of Punjab, and it has become kind of its own 
little world. They have got their own education system, a lot 
of economic facilities. They have an extraordinarily high 
standard for----
    The Chairman. How large is the army?
    Ambassador Schaffer. Hmm?
    The Chairman. How large is it?
    Dr. Weinbaum. About 600,000.
    The Chairman. I have just one question, and any one of you 
can answer it.
    What are the implications of President Musharraf's planned 
resignation from his military post? Anybody.
    Mr. Haqqani. The implications, of course, would be, on the 
one hand, it would strengthen the civilians' role in 
government, and it may actually bring to an end or at least 
diminish the opposition that General Musharraf attracts by 
virtue of having both positions.
    The succession in the Pakistan army is going to follow a 
clearly defined structure, because the army is an institution 
that is very structured, and it might actually enable a new 
commander to take over who will be closer in age and, in terms 
of training, have better interaction with his other commanders, 
because one of the biggest problems that is emerging from 
General Musharraf's hanging in there for so long is that the 
gap between the military academy course that General Musharraf 
attended and the military academy course that his lieutenant 
generals and major generals attended has been increasing, and 
that gap also, usually, translates into ineffective 
relationships or relationships that are not necessarily built 
together while having been in the army in the chain of command 
at the same time. So I think it would probably be a good thing 
for both the Pakistan army and Pakistan's political 
development.
    Dr. Weinbaum. Mr. Chairman, if I could just add one remark.
    The Chairman. You bet.
    Dr. Weinbaum. I think that--I certainly agree with 
Professor Haqqani.
    We have a problem, though, in that not immediately, but 
there were 10 years in which there was no military-to-military 
relationship with Pakistan, and with that generation of people 
who did not have the contacts with us that General Musharraf 
had with British--in this case, with Kiani, with the United 
States, we are going to be seeing, very shortly, those people 
rising to positions of importance. This is an unfortunate 
consequence of having turned our back on Pakistan in 1990.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you.
    Mr. Chairman, ladies and gentlemen, if one of you could 
describe to me--we had a series of briefings on this, and it is 
still a little bit unclear as to the insurgents, the 
terrorists, who are now ensconced in this safe haven and as to 
what their real relationship is with the tribes. Is it one of 
an intimidation nature, like the Montagnards in the North 
Vietnamese Army (NVA) in the Central Highlands? Is it one of a 
common affiliation or a friendly partnership, or is it a 
business?
    Mr. Haqqani. It is a mixture of all, sir. It goes back to 
the anti-Soviet war during which this entire area was the place 
from which the operations against the Soviets were launched 
inside Afghanistan. So, at that time, of course, several jihadi 
organizers came from all over the world, including some from 
the Arab world. Some of them intermarried with the local 
tribespeople, and so now, for example, we have a situation 
where the number two in al Qaeda, Ayman al-Zawahiri, actually 
has a local wife and, therefore, is related to one particular 
tribe through marriage. So it is a 20-year/30-year 
relationship.
    There are economic interests that work together. These 
tribes are generally very poor. They do not have very good 
agrarian land. The literary rate, for example, for women in the 
entire tribal belt is 3 percent, and for men it is about 17 
percent. So, therefore, there are not really that many economic 
opportunities. There is no industry. The agriculture is 
insignificant. Most major facilities do not exist, and there, 
the ability, especially of the international terrorist networks 
like al Qaeda, to raise funds globally and bring them to the 
people is another incentive.
    So it is business. It is family. It is ideological ties 
built over the last two to three decades, and it is tribal 
pride in the case of those who feel that their matters have to 
be resolved by them, themselves, rather than by outsiders, 
because we must understand that the bulk of the officers corps 
of Pakistan's army comes from regions that are not necessarily 
Pashtun and, certainly, not from the tribal areas.
    Mr. Hunter. Well, if the relationship between the 
extremists and the locals is that strong, why do you think--you 
have discussed the idea of the United States trying to utilize 
resources in terms of putting money in, development, all the 
things that sometimes accompany a military operation where you 
are trying to bring about the friendship of the population. 
That sounds to me like you have got some pretty strong elements 
that will be very difficult to turn aside with a couple of 
water projects or to change or to cleave.
    Ambassador Schaffer. That is why, sir, I described this as 
the work of a generation.
    What the Pakistani state basically has to do through some 
combination of political, economic, and other means is to make 
the tribal leaders in those areas feel that their future 
depends on Pakistan, and that they should not look on the 
Pakistani leadership as outsiders, but, as you said yourself, 
this does not happen quickly or easily.
    Mr. Hunter. Yes. Go ahead.
    Dr. Weinbaum. If I might just add to that, what we are 
dealing with here is a different leadership. Previously the way 
the British earlier and then the Pakistan government dealt with 
this leadership was through political agents who offered bribes 
and also threats.
    What we have now, increasingly, in radicalized laws and in 
young men who are unemployed and who are getting some of the 
funds that Mr. Haqqani had mentioned--what we are getting now 
are people who are ideologically bent, and these individuals 
have mostly as their mission the Islamitization and, indeed, 
the Talibanization of their own country, and so their agenda is 
not one that you can easily buy off.
    Mr. Hunter. Well, then, the last question, Mr. Chairman.
    Give me the relationship of the army--of these 100,000 
folks who are compromised somewhat by the frontier force and, 
to some degree, by the regular Pakistani army--their 
relationship with these tribal communities.
    As they come in searching--presumably searching for the 
enemy, do the tribes take up arms against them? Do they stand 
by? Do they try to help in subtle ways the terrorist community 
there? What is the relationship?
    Dr. Weinbaum. You know, some tribes--and we should really 
talk about subtribes and smaller units--do side with the 
military. Others, clearly, are working against the military. So 
it is hard to generalize about this, but for the most part, the 
military does not engage in the kind of door-to-door operations 
that we are familiar with.
    For example, in southern Afghanistan, the military, for the 
most part, has not taken the initiative in the tribal area 
recently. The other day, the 200 or so who were killed were 
killed by aerial bombardment. So there is not really a strong 
relationship here.
    Let me just sum up by saying what the military has done 
with some success. Until the Red Mosque affair took place, it 
has tried to use that old method of divide and rule. It has 
tried to support some factions against other factions, and that 
for a while did work. But now we see that that original 
agreement of September 2006 has been broken by virtually all of 
the tribes in the Waziristan area.
    Ms. Curtis. Can I just emphasize Ambassador Schaffer's 
point about this taking a long period of time, and we have to 
have a certain amount of patience?
    It is economic development in the first instance, but it is 
about changing the ideology. As Professor Haqqani pointed out, 
there are the links going back to the Afghan war. In many ways 
these people are stuck in the 1980's, the 1990's. They have not 
absorbed the changes that have been brought by 9/11. So part of 
this is ideological, and it does start with socioeconomic 
development, but it does take a long time.
    Just to point out, as to the idea of sort of dividing and 
conquering and the fact that these tribes do have different 
loyalties, and the Pakistan government has tried to use that in 
order to get tactical gains, should we say, in the long run, I 
do not think that that kind of strategy is going to be 
effective. There has to be an all-out, comprehensive effort 
that does include politically integrating these areas into 
Pakistan, and there have been efforts in this regard by some of 
the Pakistani political parties who argue that if you do bring 
those areas into the broader Pakistani political framework, you 
are likely to get at this problem of extremism, because then 
there will not be so much power going to the mosques and these 
unofficial links, and you will have the areas being part of the 
overall Pakistani system.
    Mr. Haqqani. If I may just say one word.
    There will be some people who will be diehard, 
ideologically committed extremists, and they can be dealt with 
militarily. Then there are those who are in it because this is 
their livelihood. They facilitate the jihad, and so that is 
their livelihood. I think that the government of Pakistan's 
desire is to at least get these people out of that mix and give 
them an alternative livelihood rather than just being the 
facilitators of extremists who get funds from outside and, 
therefore, are influential through their ability to provide 
resources to the locals.
    So it is two parallel tracks. I mean, of course, if Osama 
bin Laden marries into a tribe and, therefore, buys that 
loyalty to that marriage, that tribe will have to be dealt with 
differently than the tribe that is there only because it is 
getting money to be able to allow people safe passage through 
the mountains and the hills and the caves that that tribe 
controls.
    Mr. Hunter. Okay. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Spratt.
    Mr. Spratt. Thank you all for your excellent presentations 
and testimony.
    I think it was you, Mr. Haqqani, who said that the 
Musharraf government and the army tend to draw a distinction 
between the Taliban and al Qaeda.
    Number one, how do they distinguish the two? How do they 
identify one as opposed to the other? How do they justify that 
distinction?
    Mr. Haqqani. Sir, first of all, the Taliban are exclusively 
Pashtun. They are either Afghans, and now, increasingly, they 
are Pakistanis, so they speak the Pashtun language. They are 
from the area.
    What the Musharraf government describes as al Qaeda are 
essentially those who are of non-local origin--for example, 
Arabs, Uzbeks, Chechens, even people from the Xinjiang province 
of China--who have all assembled there and who are led 
primarily by the ideology as well as the organizational 
structure of Osama bin Laden. I personally feel that----
    Mr. Spratt. So the al Qaeda are identifiable? They are 
distinguishable from the Taliban and any other extremists?
    Mr. Haqqani. Yes, they are. My only comment would be that, 
in some cases, there are Taliban groups that have actually 
placed themselves virtually under the control of al Qaeda, and 
that is a reality that the government of Pakistan has been very 
reluctant to admit, but it is a reality that people like me 
have been pointing out for three or four years, that there are 
at least some Taliban who are not just local; they are 
essentially integrated into the al Qaeda command structure and 
should, therefore, be treated just like al Qaeda should be 
treated or is treated.
    Mr. Spratt. Well, you say that the army really does not 
appear to have a plan for going after al Qaeda, but if they 
know their safe havens and the places where they live can 
distinguish them from other extremist elements, what is holding 
them back and preventing them from taking that initiative? Is 
it Musharraf, himself, or his government?
    Mr. Haqqani. Sir, making a distinction between the two as 
individuals or groups is not necessarily the same thing as 
saying that they actually know the different safe havens, 
because in some cases the Taliban provides a safe haven for al 
Qaeda. So, if the al Qaeda people were actually to come out and 
a Pakistan army person were to be confronted with an Arab from 
al Qaeda and a Pashtun Taliban, he would be able to make the 
distinction, but if you are flying over, you do not necessarily 
make a distinction, because both dress alike.
    In the end, the Pakistani government's intelligence 
capability and the U.S. intelligence capability in this matter 
is not something that is shared with people like myself who are 
outside of government, but if they do have the intelligence and 
they do not go after them, the only explanation for that would 
be that people in the government of Pakistan feel that they do 
not need to solve this problem right now.
    Mr. Spratt. All of you seem to suggest that Musharraf has 
his faults and his shortcomings, for sure, but it begs the 
question: Is there anyone better who would take his place if he 
were deposed or somehow defeated?
    In particular, I have been told that, in the army, the 
junior officers tend to be much more fundamentalists in Islam 
and ideological than do the senior officers, who are more like 
the British for that matter. They are more worldly and less 
ideological. Is that a correct observation that the junior 
officers in the army are apt to be worse?
    Ambassador Schaffer. That I cannot tell you, sir.
    There has been an increase in public piety in Pakistan over 
the past 10, 20 years, and I am sure the army has participated 
in that, but like other organizations, it tends to recruit 
officers like the old ones. So I suspect that there is not a 
stark difference between the generations.
    I would urge you, though, not just to think in terms of 
this individual or that individual. You have got a government 
structure in Pakistan where institutions historically have 
become weaker, and that is one of the big problems we are 
dealing with. Musharraf today is not the same guy that we have 
been working with for the past six weeks. His power and ability 
to control things in Pakistan have significantly diminished in 
the past six months. He has shown a need and a willingness to 
reach for repressive measures when politically challenged, and 
I think what you are going to deal with in the future is a more 
brittle Musharraf without, unfortunately, the buildup of 
institutions that can help moderate this, and that, I think, is 
the most urgent need for our long-term policy in Pakistan.
    Mr. Spratt. Thank you very much.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. Pakistan currently is believed to have enough 
fissile material, mainly enriched uranium, for maybe 90 nuclear 
weapons and is assumed to have the capability to deliver them 
over significant distances. Officially, the United States 
continues to urge Pakistan to join the Nuclear Non-
proliferation Treaty (NPT) and offers no official recognition 
of Pakistan's nuclear weapons capability, which certainly 
exists in spite of this policy of not recognizing it.
    I have a staff-prepared document in front of me which says 
the obvious, I think, that internal instability has been on the 
rise in Pakistan since mid-2007. Now, there has been 
essentially no discussion of the nuclear issue relative to 
Pakistan, although they could have as many as 90 weapons, with 
internal instability; and we are near-hysterical over the 
possibility that Iran may obtain a nuclear weapon or two.
    Are we too little concerned about the nuclear issue in 
Pakistan, too much concerned about the nuclear issue in Iran? 
What are your thoughts?
    Ms. Curtis. Well, I think that the army, as an institution, 
has firm control--command and control over the nuclear weapons; 
and I don't think there is any reason to be unduly concerned, 
with this political transition that we are in, that something 
could happen with the command of those nuclear weapons.
    Our issue with Pakistan's assets is more long-term. 
Certainly, the U.S. needs to make it a priority, the security 
and safety of Pakistan's nuclear assets, and I will talk about 
a particular case that happened shortly after 9/11 in which 
some senior retired Pakistani nuclear scientists actually met 
with al Qaeda leaders--I think Osama bin Laden himself. And 
this is something that we need to be concerned about, retired 
officials who still have links to jihadists, particularly al 
Qaeda, and their willingness to associate and communicate with 
them.
    I think it is the penetration of the nuclear establishment 
that the U.S. should be most concerned about, and so that means 
we need to work with Pakistanis in ensuring nuclear safety and 
security. This is difficult to do because, as you said, 
Pakistan has not signed NPT, and U.S. law prohibits any 
cooperation that might enhance Pakistan's nuclear capabilities. 
So this is certainly a sensitive issue, but is one that we need 
to forge through and we need to continue pursuing.
    Mr. Haqqani. If I may make a short comment, sir, nuclear 
non-proliferation in South Asia and non-proliferation concerns 
relating to Pakistan have simply not been on the agenda of the 
U.S. Government for the last couple of years, and I think that 
they need to be brought back on the agenda. That is not to say 
that Pakistan's nuclear weapons pose a threat to international 
security right away. But to the extent that we want to control 
nuclear proliferation all over the world, I think that the U.S. 
Government should start taking an active interest in ensuring 
that South Asia, as a region--and that applies to both India 
and Pakistan--that the nuclear capabilities are brought under 
some international regime because, right now, both countries 
are non-signatories of the Non-proliferation Treaty, and none 
of the international obligations apply to either of them at the 
moment.
    Mr. Bartlett. The international rules for nuclear non-
proliferation seem to be pretty clear. You can't have a nuclear 
weapon until you have them, and then it is okay. Is that going 
to obtain to Iran as well?
    Ambassador Schaffer. I am sure that the U.S. does not wish 
it to obtain to Iran, but more importantly, I am sure the U.S. 
would like not to find out, because they don't want Iran to 
develop the things in the first place.
    I think, in the case of Pakistan, the U.S. has had, 
historically, two big worries about its nuclear arsenal: one, 
that it not be used in the most obvious cases--that would be a 
hypothetical war with India; two, that it not be exported. And 
on that score, as you know, there have been some lapses, 
particularly the network run by A.Q. Kahn. And Lisa said, the 
security of the existing arsenal is as good or as bad as the 
security of the Pakistan army.
    I would say, right at the moment, probably pretty good, but 
certainly nothing one can be complacent about.
    Mr. Bartlett. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman. I would try to see if I 
could understand.
    I think Mr. Haqqani mentioned that President Musharraf has 
not been able to mobilize civilian support, but he is able to 
win an election. Normally, at least here in the United States, 
if somebody is able to win an election, you can normally try to 
mobilize civilian support. So what is the missing ingredient 
here? How come he can't do that if he is able to win an 
election?
    Mr. Haqqani. If I may explain the Pakistani system, sir, he 
hasn't been elected like the President of the United States is 
elected. The people did not vote. He was elected by the 
parliament, so--he had an election for parliament in 2002, 
which was described by the State Department and all 
international observers as seriously flawed.
    And now there is a parliamentary election, and in 
principle, he should have waited for the next parliament to 
elect the next president. But to ensure that he will be 
president, he asked the current parliament to vote on him. And 
because he already had a majority, he had the deck stacked 
there. He won. So read in the newspaper: He got 98 percent of 
the votes cast. Basically, you are talking about some 300-odd 
people voting for him out of parliament. All the opposition 
parties boycotted the election. The major opposition party, led 
by former Prime Minister Benazir Bhutto, decided to abstain 
from the election but did not resign from the parliament.
    So it is more the technical victory. It gives him legal 
cover to remain president for the next five years. It is not a 
legitimate election.
    As far as popularity is concerned, the same poll that Ms. 
Curtis quoted from Terror Free Tomorrow shows us that Osama bin 
Laden right now has more favorable ratings in Pakistan in 
opinion polls than General Musharraf does.
    Mr. Ortiz. So what problems would be created once the 
courts come out and certify him, that he has won the election? 
What problems do you anticipate would happen when that happens?
    Mr. Haqqani. The problems that are most likely to happen 
are that the Pakistani political parties and the loyalists who 
have been campaigning against General Musharraf will continue 
to campaign against him. The only way it may be averted is if a 
parliamentary election is held and the parliamentary election 
is genuinely free and fair; and the people feel that now 
Musharraf is a transitional figure so let us accept him as a 
transitional figure.
    My fears are that General Musharraf is too used to being an 
absolute ruler. But if he is willing to give up absolute power 
and share it with whoever wins the parliamentary election and 
allows them to become prime minister with full powers under the 
constitution, then we could actually see a transition in which 
the fact that he is unpopular does not matter. It would be a 
bit like Chile and Pinochet in the end game; when Pinochet is 
withdrawing and the elections are held and a new government is 
coming in, his shadow is still there, but it is a shadow, not 
full power.
    That is the scenario that would be a good scenario.
    The bad scenario would be that General Musharraf insists on 
saying, ``Now that I have been elected, the election has been 
certified, I am the boss and I am going to continue business as 
usual.'' If that happens, we will see a lot of friction and 
conflict in Pakistan; and for the purposes of the members of 
this committee, it will be a major, major distraction from the 
war against terror, because while the president and his main 
advisers are busy trying to control the government and survive 
in office, there is no likelihood that an effective war can be 
waged against the terrorists.
    Mr. Ortiz. One of the things--and I know there is a lot of 
deal-making between our government and the Pakistani 
government. But I think one of the things that we--at least 
that I see missing is that we are not going to the Pakistani 
people. But how do you do that? I mean, how can we engage the 
masses of Pakistani people?
    I think that is a mistake that we have made, not only in 
Pakistan, but in many places; that instead of going to the 
people, we go to, of course, the politicians and other 
government officials. Is there a way to do that more 
effectively?
    Dr. Weinbaum. Sir, the Pakistani people, by and large, view 
the partnership with the United States as one with the army and 
Musharraf. We failed here by the way in which we have used our 
assistance, as you have heard. Some 80 percent of all the 
assistance that we have given over the years has gone for the 
military or for security. The people of Pakistan have viewed 
this relationship, therefore, as not necessarily in their 
interests.
    As you have also heard, there was a bright moment, back two 
years ago just now, when we demonstrated to the Pakistan 
people, through our support when the earthquake took place, our 
willingness to move our military in and to assist in the relief 
efforts, which was so significant, because what it said for 
that brief time was, here was the United States military 
operating for the people of Pakistan, something which was not 
going to benefit directly the army or Musharraf.
    I think generally what we have with President Musharraf is 
someone who--for lack of, indeed, thinking about plan B, we 
have thrown our lot in with President Musharraf and lavished 
praise on him over a long period of time and not recognized the 
way in which this was being interpreted in Pakistan society. 
The more we have done it of late, the more we have only 
reinforced the idea that somehow this is a relationship with 
him.
    We failed also to--only quite belatedly did we suggest to 
push him, in a sense, toward a partnership, in this case with 
Benazir Bhutto. But that came very late in the game and was so 
transparent that now most people in Pakistan view that as, 
again, something which was orchestrated here in Washington. It 
serves neither President Musharraf nor, for that matter, Madam 
Bhutto.
    Mr. Ortiz. Thank you so much.
    Mr. Spratt [presiding]. Mr. Jones of North Carolina.
    Mr. Jones. Mr. Chairman, thank you.
    And I want to say to the panel, this has been fascinating. 
What I have heard is of great concern to me. It truly is. And I 
am sure it is to many people like myself who are not experts in 
this area.
    Ambassador Schaffer, your comments about--and you certainly 
explained it--a critical time. I was really just taken aback 
when the professor said that bin Laden was the most popular 
figure in Ms. Curtis' poll.
    Ms. Curtis, would you go back briefly and explain the poll, 
the couple of questions that you might have asked the people of 
Pakistan, as it related to the image of America in and around 
that area and, also, how you asked the question about bin 
Laden.
    Just curiosity more than anything, the reason I am asking.
    Ms. Curtis. What the Terror Free Tomorrow poll showed, 
which I think was about a month ago, was that the Pakistani 
people do not see the fight against terrorism as their fight; 
they see what is happening as being done largely at the U.S.'s 
behest, even though the terrorists certainly threaten the 
Pakistani state.
    And we saw Osama bin Laden, in a recent video, call on 
Pakistanis to rise up and overturn the regime. So clearly there 
is an extremist threat, but for several different reasons the 
Pakistanis themselves are not seeing it that way. They are not 
digesting it the way, I think, we in America view the 
situation. And so this is a problem, and we do have to work on 
improving perceptions of America in Pakistan.
    Our credibility is at an all-time low. I think we were slow 
to recognize the ferment for democracy in that country. We have 
recently adopted a policy that is promoting democracy, but I 
think that it may be too little too late. I think it is very 
important that President Musharraf remove his military uniform 
because of the problems with the election that Professor 
Haqqani pointed out with the Presidential election.
    And there are challenges within the Supreme Court to that 
election as we speak that have still not been decided upon. If 
the Supreme Court legitimizes that election, I think it is 
incumbent on President Musharraf to step down from his position 
as Chief of Army staff. He has already promised the Court this. 
He reneged on this pledge in 2004; if he does it again, there 
will certainly be political unrest.
    And so this is a key issue that I think the U.S. can help 
on.
    Ambassador Schaffer. Sir, I think that there are two other 
aspects of that poll that are important. One is the fact that 
it took place at a time when General Musharraf's popularity was 
really tanking for reasons that had essentially nothing to do 
with the United States. But he has been in power for eight 
years; and Pakistan is a tough country to govern, so that even 
if he had no flaws at all, it seems logical that his popularity 
would have fallen. And, of course, with the tug of war he was 
conducting with the Supreme Court, that certainly intensified 
it.
    The other important factor is Iraq. And the United States 
in the public mind in Pakistan has become so associated with 
this attack on Muslims, as it is seen, that this very much 
intensifies the unpopularity of the United States.
    I served in Pakistan 30 years ago. I traveled all over the 
place without worrying about my security. My kids spoke Urdu 
and chatted up all the neighbors and the villagers across the 
way. It was a very different country then.
    Mr. Haqqani. And if I could just explain, the question that 
was asked in the poll was, ``Do you approve or disapprove of 
the following?'' And it listed several people. So Ms. Bhutto, 
for example, had a 63 percent approval rating, and Mr. Nawaz 
Sharif, the former Prime Minister, had 56; Osama bin Laden had 
44 and General Musharraf had 33. So Osama bin Laden is not the 
most popular person in Pakistan; it is just that he has a 
higher favorable rating than General Musharraf does.
    Dr. Weinbaum. Sir, there is another poll, and that is by 
the Pew Organization, which indicated a favorable view of the 
United States by approximately 17 percent of the Pakistan 
public.
    I think that the real tragedy here is that Pakistan's 
alternatives have been so dismal that it has--even on the 
Democratic Front here, it has choices here that even many of 
the Pakistan people in the parties themselves would say, ``It 
is sad that this is really the menu that we have politically to 
choose from.''
    And much of President Musharraf's strength over the last 
few years has been by default, that there has been no one who 
has been able to step up. And I think it is unfortunate now 
that because Benazir Bhutto has chosen to negotiate with him, 
the fact that she has produced up to this point so little in 
the way of concessions from him, I fear that she, who 
represents perhaps the most progressive elements in Pakistan, 
now has lost so much credibility that even that point of view 
may have suffered.
    Mr. Jones. Thank you, Mr. Chairman.
    The Chairman [presiding]. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    I agree with your analysis wholeheartedly, about the box 
that we are in and perhaps how we got there. I wonder if you 
could address sort of the counterargument and the reason our 
Administration has pursued this path, is that the fear that 
while--if it is not Musharraf, then the extremists take over 
and we don't have control; we can't risk moving away from him 
because there is no alternative.
    It seems to me that we would have been better served and we 
would even be better served now to push for democracy, because 
we may have Musharraf, but we are losing the population. And, 
ultimately, as we lose the Pakistani population, their support 
for the U.S., even their support for the notion that the 
extremists in their midst, like al Qaeda, are a profound threat 
to them. When they see us as the cause of that, we are really 
undermining our policy.
    So, two questions: What is the specific way back from that? 
How do we get the population of Pakistan to--and I don't even 
think we should focus on getting them necessarily to be more 
sympathetic to the U.S. I think we need to get them to the 
point where they see al Qaeda, the Taliban, and that group of 
extremists as a threat to them that they need to confront. That 
would be my goal.
    But what is the way back to that? And what is the risk 
along the way of those people gaining more electoral power if 
we try to move off of Musharraf? How do we get the former 
without falling into the latter?
    Ambassador Schaffer. I think you are talking fundamentally 
about the message that Pakistani leaders who are seeking 
popular election will be delivering or won't be delivering as 
the case may be. Where the U.S., I think, missed a number of 
opportunities was that our support for the democratic process 
in Pakistan has been, at best, anemic. And if we had been 
having this conversation a few years ago, there were lots of 
alternatives, none of them perfect, but several of them, with 
people that we had in fact worked in the past. So it is not as 
if it was just Musharraf and the crazies.
    You now have the possibility of a government emerging from 
the next elections that will include Musharraf's people and 
Benazir Bhutto's people, all of them having lost something in 
credibility and political popularity in the process of getting 
there. They have an opportunity to recast the struggle against 
the extremists as Pakistan's struggle. If they don't do that, I 
would submit to you they are in trouble, because there has been 
violence in Pakistan in the past three months on a scale that I 
can't remember.
    Mr. Smith. Can I focus in on that point?
    As you mentioned earlier, a lot of the Pakistani people 
have said it is because of Musharraf's policies, his alliance 
with the U.S., what we are doing in Iraq and Afghanistan. There 
has got to be a piece of it that, ``Gosh, these extremists are 
a threat to us.'' So I would imagine there is some balance in 
the public opinion.
    Can you help me out with your greater knowledge of how the 
Pakistani people look at that?
    Ambassador Schaffer. I can't help you out at the level of 
the man on the street or the man in the wheat fields, because 
there are an awful lot of them; it is a country of 160 million 
people. But if you are talking about the opinion of elite, 
educated people, there is widespread recognition that 
extremists, particularly those that are prepared to use 
violence, pose a real threat to the integrity of the state.
    Lisa and I were at a meeting last weekend with a number of 
distinguished Pakistani representatives who made the most 
impassioned plea to that effect that I can remember hearing in 
a long time.
    So it is really a question of how you articulate and how 
you envision the battle for self-preservation that I think the 
Pakistani state has to undertake. And this is something that is 
taking place not just in the frontier areas, but also in what 
Pakistanis call the ``settled areas.'' The Red Mosque, after 
all, was in downtown Islamabad, which is a sleepy, suburban-
feeling capital.
    Mr. Smith. I am about out of time. I want to ask one final 
question.
    Isn't there a certain wisdom at this point in stepping back 
a little bit on our part as the U.S. and saying, ``We believe 
in democracy enough to accept its outcome in Pakistan, and we 
don't feel the need to manipulate it?''
    Or is the risk in doing that greater than the rewards?
    Ambassador Schaffer. There is a risk in everything. I would 
agree with that statement.
    Dr. Weinbaum. One of the problems that we have now is that 
our credibility has fallen so low that virtually anything we do 
is misinterpreted.
    For example, just a few weeks ago Secretary Rice initiated 
a phone call at apparently two in the morning which--I don't 
think we decided that. But there was a great deal of 
disagreement within the elite itself, within the establishment 
itself, whether going to emergency rule was really in the best 
interest of the country, or the military for that matter. 
Secretary Rice, I think, changed the balance here or the 
feeling and he did not go ahead.
    What happened in Pakistan is that rather than getting the 
credit for salvaging democracy in this case, we got the blame 
for interfering in their politics, so that this is a situation 
that we face here that, I agree with you, it is perhaps 
necessary to step back.
    Let me add one thing. There is a distinction in the public 
in Pakistan between al Qaeda and the Taliban. Al Qaeda are 
viewed as foreigners; here, I think a lot, a majority in 
Pakistan, are willing to see them as a source of terrorism and 
recognize that.
    But we have to realize that a large part of the country, 
particularly the Pashtun area of the country, does not see the 
Taliban, the Afghan Taliban as the enemy. They view them as one 
and the same kind of people. They share many cultural values 
together. They also believe that what they are doing in 
Afghanistan is supporting the Pashtun people in Afghanistan.
    So there is a great deal of difference there, and it is 
important, because it limits what the Pakistan government can 
actually do in dealing with the Afghan Taliban.
    Again, making another distinction, the Pakistani Taliban, 
their agenda is the kind of agenda we have been hearing, and 
that is to spread this Talibanization inside Pakistan.
    Mr. Smith. Thank you very much.
    The Chairman. The gentleman from Georgia, Dr. Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you.
    It seems to me the discussion this morning about the region 
is a fear that we are developing a policy of a circular firing 
squad, ultimately, and I think about the fact that we have 
supported--and I think you pointed out that most of our support 
has gone to Pakistan over the last many years on the military 
side--F-16s, as an example, other weapons systems technology.
    And now, more recently, of course, we are involved with 
India in trying to cooperate with them on a civilian nuclear 
program as they attest it to be. And I just wonder how we can 
reconcile the two areas of support of these two countries who 
are--there is a constant conflict between them not over just 
the Kashmir region. But how do we reconcile what we are doing 
in Pakistan with our policy in India?
    And the second part of the question is, what can we do to 
try to help these two countries get along better with each 
other?
    Ms. Curtis. Well, I think the answer is to continue doing 
what we have been doing. We have come a long way in terms of 
encouraging an Indo-Pak peace process, which of course was 
launched in January 2004. The Pakistani leadership has, for 
obvious reasons, been distracted, and those talks have not 
moved forward very far in the last few months, which is quite 
understandable. However, I will note that the two countries do 
have meetings in New Delhi--next week, as a matter of fact--to 
talk about nuclear confidence building as well as a joint 
counterterrorism mechanism. So I think there is interest in 
continuing the peace process.
    But certainly the U.S. should not put this issue on the 
back burner. It needs to continue to focus on pushing this 
process forward, because it is fundamental to overall security 
in the region.
    And in terms of what we are doing with each side, the U.S. 
has chosen to dehyphenate its relations with Pakistan, with 
India, no longer seeing the relationships through the lens of 
their dispute over Kashmir or their dispute--overall animosity 
with each other. And I think this is the correct policy, 
because India is an emerging country with an economy that is 
moving forward. It is playing an increasing role in Asia. So 
what we are doing with India has more to do with its role in 
Asia and our interests there, whereas with Pakistan, clearly we 
need to have a long-term relationship that works toward 
promoting democracy, stability, counterterrorism, et cetera. So 
both relationships are incredibly important, but for very 
different reasons.
    But I agree with you. The Indo-Pak peace process is 
fundamental to overall regional stability, and it impacts the 
situation even in Afghanistan. So, for that reason, we can't 
take our eye off the ball in continuing to encourage those 
talks.
    Dr. Gingrey. I would like some of the other panelists to 
comment on that, too.
    But how many attempts have been made on Musharraf's life? 
Three or four or so. And he is not going to be there forever, 
even though he says he is there for another five years. 
Something is going to happen, the possibility of something 
happening. And what kind of rogue regime is going to be there 
then with our military technology? I mentioned the F-16s, and I 
have got great concerns about that.
    Ambassador Schaffer. That is just one of the reasons that I 
think it is essential with the United States to maintain 
contact with the range of leaders in Pakistan--with the army, 
with the political opposition. And to put its support behind an 
open democratic process that has, I would suggest to you, a 
better chance of producing leadership in Pakistan that wants to 
be part of the world rather than withdrawing from it.
    There aren't any easy answers, and Pakistan is going to be 
a deeply troubled country, I think, for some time. But I see 
that as the best way of trying to muddle through.
    Mr. Haqqani. Sir, I would say that it is not necessarily--
this is a Cold War attitude we have had. There was a time when 
there was competition between India and Pakistan, and the 
United States thought that it could get advantage by giving 
weapons to Pakistan and ultimately to India. I think that that 
attitude needs to change. I think Pakistan needs schools, 
sanitation, health care. I think that Pakistan's--this attitude 
that every time the Pakistani military comes to power and comes 
to Washington, D.C., asking for new weapons systems, we think 
that that is what is going to buy America leverage there. I 
think that has been proven wrong in the past.
    I think that the real leverage for the United States will 
come through a vibrant Pakistan in which the 160 million people 
of Pakistan feel they have a stake in their country and its 
relationships with the rest of the world, a process that is 
happening in some of the countries.
    So there are two types of people in Pakistan: Those who 
want to see Pakistan as the next Korea, South Korea, or the 
next Taiwan or the next Japan; and there are those whose vision 
is that Pakistan should be a militarized state that should be 
able to fight with India; and at the same time, there are those 
within the militarized state vision who actually want a 
jihadist vision.
    I think it is time to encourage the vision of Pakistan that 
is about globalization and joining the rest of the world, 
rather than just thinking in terms of what new weapons systems 
can we sell them next year.
    Dr. Gingrey. Thank you, Mr. Chairman.
    The Chairman. Mr. Andrews from New Jersey.
    Mr. Andrews. I would like to thank the chairman for calling 
this hearing. I think it is very timely. I also thank the panel 
for great testimony.
    I think we have the right to be hopeful about this 
relationship, but we have the duty to be pessimistic and a duty 
to be sober. And let me spin out a very sobering series of 
events and ask whomever on the panel to comment.
    Ambassador Schaffer talked about the likelihood that 
whoever wins the new round of elections won't have a lot of 
credibility. I think that is self-evident.
    Let us assume that that government fails to make the war 
against the terrorists a national mission, and they get 
overwhelmed by the lack of support for what is going on. And 
let us assume that things further fall apart, and the violence 
that the ambassador made reference to rises, and there is a 
chaotic situation, and the jihadist vision that Mr. Haqqani 
just referenced a minute ago comes to pass.
    Given today's circumstances, what probability would each of 
the panelists put on the likelihood that that vision of a 
fundamentalist government taking over in Pakistan would occur? 
Given where we are today, how would you assess the probability 
of us winding up shortly down the road with an Islamic 
fundamentalist government running things in Pakistan?
    Ambassador Schaffer. Given a halfway decent performance by 
the next government, I would assess it relatively low.
    Mr. Andrews. What if the performance fails?
    Ambassador Schaffer. If the performance is bad and seen to 
be bad, by which I mean trouble in the streets, tapering off of 
economic growth, visible and obvious reverses by the army in 
dealing with the frontier areas, then I have a real concern 
that a hybrid government of the sort that now seems to be a 
possibility would tarnish all the participants in it and would 
set the stage, possibly, for the religious parties to do better 
than they historically have.
    Now, let me distinguish between the religious parties and 
the militants. The religious parties are participants in the 
political process; they are not themselves people who take up 
arms. They include their share, some would say more than their 
share, of people who are in it for the patronage. The militants 
are people who are prepared to use violence.
    But there is some overlap between the two groups.
    Mr. Andrews. So how would you assess the probability the 
militants would ascend?
    Ambassador Schaffer. The only way I can see that happening 
would be if they made common cause with somebody in the army.
    Mr. Andrews. Dr. Weinbaum, what is your assessment?
    Dr. Weinbaum. I would add to what Ambassador Schaffer has 
said. It really depends on what happens with the mainstream of 
Pakistan's politics. I think the great hope here, based on the 
past, is that most Pakistanis really do support moderate, 
mainstream politics.
    These parties are not programmatic parties, as such, but 
they have dominated. As you have heard this figure so many 
times, the religious parties, at best, get 11 percent of the 
vote.
    The great fear would be that if a military government--and 
Musharraf has been doing this--if it continues here to sideline 
the moderate parties, that if it encumbers the moderate 
parties, there will be effectively a vacuum, and so then that 
the alternative to the military will be a solution which is 
promulgated by the religious parties.
    Mr. Andrews. Mr. Haqqani, remember my question, the premise 
of it was that we had a failed credibility of the new 
government. So what happens if that happens?
    Mr. Haqqani. In case of the failed credibility of the 
government, the Pakistan army will still have residual strength 
to be able to keep things under control for maybe another five, 
seven years. But ten years down the road, unless Pakistan's 
internal crises are addressed and there are multiple crises--
there are the tribal areas, there are the economic injustices--
--
    Mr. Andrews. You think it is high?
    Mr. Haqqani. I think in ten years it could be very high 
unless those crises are addressed.
    Mr. Andrews. Thank you.
    Ms. Curtis, what do you think?
    Ms. Curtis. Well, first, I think your scenario--I think the 
chances are very low so long as a general election is held and 
is perceived as credible. I think the scenario that you spell 
out is more likely in the event that we don't move forward with 
a political process in returning to civilian democratic rule.
    Mr. Andrews. Why would you favor conditioning U.S. aid on 
at least holding a general election then? Because you said 
there shouldn't be any condition on U.S. aid. Wouldn't it make 
sense then? Just say, we don't care about the outcome? Just 
say, you have to have the election?
    Ms. Curtis. I think it is complex, and I think we need to 
encourage elections. But we can do that diplomatically. Our 
statements mean a lot. When we call on the government to 
release opposition politicians, it matters.
    So I think our statements mean a lot, but conditioning the 
assistance sends the wrong signal.
    Mr. Andrews. Thank you, Mr. Chairman.
    The Chairman. I think--Mr. Haqqani?
    Mr. Haqqani. I just wanted to make a quick comment.
    As long as it is not seen as a return to Pressler, meaning 
legislation that will automatically come into effect and 
therefore will hurt Pakistan and will therefore be seen as 
Uncle Sam dictating to Pakistan, I think that some pressure 
from both Congress and the executive branch for a free and fair 
election, because Pakistan has a track record of being able to 
hold elections. Whether they are free or fair is a different 
matter.
    So I think that a free and fair election which is inclusive 
and allows everybody a level playing field, I think, is 
something that is in the interest of Pakistan and in the 
interest of the U.S.-Pakistan relationship; and anything you do 
in favor of it is welcome.
    The Chairman. We are going to try to squeeze a couple more 
members in, and then we have four votes, one 15-minute and 
three 5-minute votes. But subject to the witnesses being able 
to stay with us, we will return, because it is a very, very 
important hearing.
    Mr. Akin, to be followed by Ms. Davis.
    Mr. Akin. Thank you, Mr. Chairman.
    You might have commented on this earlier.
    In terms of the overall instability that is introduced in 
Pakistan, what percent do the, particularly, Saudi-funded 
madrasah--how much element of trouble is that?
    Because my visit to Pakistan a couple years ago was at a 
heady time where relations had just been improved with India. 
There was no more fighting. We stood at the border where you 
would have been shot two months before. A lot of things looked 
like they were going the right way.
    But on the other hand, there was no public school system, 
and Saudi oil money was being used to basically train up a new 
generation of crazies.
    Could you comment on, how does that affect the overall? Is 
that a big thing, or is that just something that over time 
becomes a problem?
    Mr. Haqqani. Sir, I attended a madrasah, sir, in the 1960's 
at a time when Pakistan had only a handful of madrasahs, and I 
assure you that I haven't grown up to be a crazy.
    But something has changed. There are more than 10,000 
madrasahs now, and they are producing crazies. And what has 
changed is that my madrasah was locally funded; it was funded 
by the community. It was a traditionalist seminary. It taught 
us the Koran, and it taught us traditional Islamist learning 
and did not necessarily teach us to hate anybody. Things have 
changed since then.
    I think that one of the impacts of the war against the 
Soviets in Afghanistan was that General Zia ul-Haq invited the 
Saudis--both private individuals, by the way, and the royal 
family. So it is not just the royal family; it is also private 
charities from Saudi Arabia and other gulf countries that have 
now established madrasahs. Even if only a small fraction of 
them are used as recruitment centers for radicals, it is a 
disturbing problem.
    The government of Pakistan says it is trying to address the 
problem, but many of the cast of characters in Pakistan's 
radical movement come from the same schools. And when people 
who are engaged in militancy are coming from the same set of 
schools, then there is definitely a connection; and those 
schools are a problem, and I think that that needs to be 
addressed.
    But at the same time, the public school system in Pakistan 
has virtually broken down. Pakistan invests less than two 
percent of its gross domestic product (GDP) in education, 
notwithstanding the fact that Pakistan has a very young 
population. And for that young population, schools need to be 
built.
    And Pakistan's public school system needs to be mended, 
because a lot of families do not intend to send their children 
to madrasahs to make them radicals. They send them because they 
need these kids to go somewhere to study something. So if there 
is a viable public school system which absorbs a large number 
of young people, then I think that the significance of the 
madrasahs in relative terms will diminish.
    At the same time, the radical madrasahs need to be shut 
down.
    Mr. Akin. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    The gentlelady from California, Ms. Davis, and then we will 
break for the four votes. I hope you can return for the 
completion of the hearing.
    Mrs. Davis of California. Thank you, Mr. Chairman, and 
thank you for the hearing. I think it is very important.
    And I want to thank all of you for being here.
    Could you go back to the reference that you all have made 
in one way or another to U.S. policy and the issue of 
conditioning, whether it is Department of Defense (DOD) 
assistance or other assistance, to the fight against terrorism? 
I think I heard from all of you that you felt that that 
conditioning issue is not a good idea and that, in fact, it 
goes back to the 1990 concern about our fickleness. But could 
you flesh that out some more in terms of what--specifically, 
what other leverage you believe that the U.S. should be 
utilizing that it hasn't used?
    And if there is some contribution in there to the--you 
referenced retraining of the military, looking at it 
differently in terms of whether it is able to act more like a 
counterinsurgency. What--where is the U.S.? What should the 
U.S. position be? And how can we influence that in a way--being 
a partner as opposed to being in some different kind of 
relationship?
    Ambassador Schaffer. I lived through Pressler as a 
government official. It was always looked on as the heavy hand 
of the United States. I would estimate that it probably brought 
us two, three years of delay on Pakistan's nuclear program. It 
obviously did not prevent Pakistan from developing nuclear 
weapons, as it had been intended to do. So that gives me a 
somewhat jaundiced eye on the effectiveness of legislatively 
mandated conditions.
    I believe that it would be completely appropriate, however, 
for the Administration, as a matter of policy and perhaps with 
some encouragement from the Congress, to calibrate our military 
sales and our military assistance to Pakistan's policies.
    I have argued in my testimony that we needed to find some 
way of encouraging the Pakistan army in developing expertise in 
the military tools of counterinsurgency. I don't know whether 
the United States is the best source of that expertise, but if 
we aren't, we ought to help them find who is.
    I think that doing this as a matter of policy can probably 
have quite a lot of impact without having quite the same PR 
disaster as a legislatively mandated cutoff.
    Ms. Curtis. I think that given the importance of our 
relationship with Pakistan, the fact that U.S. credibility is 
so low, they are facing threats from extremists, we have seen 
the violence increase dramatically over the last few months--it 
is a very dicey situation, and when the U.S. comes in and 
announces, ``Well, we are going to condition our assistance,'' 
as happened with House Resolution (H.R.) 1, implementing the 9/
11 legislation act, we just don't help our cause.
    If we are trying to bring the Pakistani people along in the 
fight against terrorism, promoting economic development, 
moderation, democracy, I just don't think that we help our 
cause when we publicly condition.
    Now, I think there is much more room to use more savvy 
diplomacy, if you will. I think it is incumbent upon our 
diplomats to find ways to pressure, to hold the Pakistanis' 
feet to the fire, in other words, on some of these issues, and 
to look at it more from a strategic perspective.
    I mean, certainly Pakistan, it has had three wars with its 
neighbor India. Relations are tense with Afghanistan. You know, 
there is a need for support in terms of managing the strategic 
challenges that they face. So I think the U.S. would be better 
served by dealing more holistically, rather than coming in and 
conditioning, on one particular occasion, the assistance.
    Mr. Haqqani. My quick response would be that there are many 
tools between the sledgehammer of sanctions and the indulgence 
of constant praise that we have heaped on General Musharraf in 
the last few years. I think that every time the United States 
engages with Pakistani officials and makes its concerns known, 
it does have an effect.
    When Secretary of State Rice called General Musharraf and 
told him an emergency was not acceptable, we didn't see 
emergency. It worked. Similarly, when the U.S. ambassador in 
Islamabad said that she was recently concerned with the 
arrests, guess what? Everybody arrested was released in 48 
hours.
    I think a little more forthright talk is needed. Maybe it 
is time to tell them that they have been making mistakes.
    Mrs. Davis of California. Thank you.
    The Chairman. We will break momentarily. We shall return.
    The hearing will resume.
    The gentleman from Texas is recognized.
    Mr. Conaway. Thank you, Mr. Chairman. It is good to be 
back.
    One of two questions. One, the briefing document made a 
comment that President Musharraf and Ms. Bhutto, while viewed 
as pro-Western and had been pro-Western, are viewed as 
unrepresentative of the priorities of most Pakistani people. So 
I would like your comments on that.
    The other thing is you are talking about how to deal with 
the ungoverned areas of the tribal areas. You talked about 
economic development and jobs and those kinds of things. In 
September, I had the chance to fly along the Afghani-Pakistan 
border on the Afghanistan side. That area appears to be, for 
lack of a better phrase, a moonscape.
    You have already said agriculture is limited. Are there 
hard minerals that can be mined? Is there an opportunity for 
economic development in that section of Pakistan that would 
realistically make sense, in terms of trying to prevent their 
radicalization of folks in that particular area?
    So comments on either of those questions.
    Ambassador Schaffer. I will tackle the pro-Western part of 
it.
    The United States has worked with Musharraf for the past 
six years--actually, for the past eight years. He certainly 
sees Pakistan's future in engagement with the West and with the 
United States. He certainly sees Pakistan's economic future as 
most promising if you get that kind of engagement going. I 
would describe him as a Pakistani nationalist but in that 
context.
    Benazir Bhutto is an educated woman. She went to Harvard. 
She went to Oxford. She has worked with the United States also.
    Pro-Western does not necessarily equate to support for the 
full range of U.S. foreign policy, and of course, Iraq is a big 
exception there. It does, in both cases, mean that they are not 
interested in the Taliban's vision of Pakistani society. They 
would like to see Pakistan as a modern society. The word 
``secular'' translates badly into Urdu, but the way we think of 
``secular,'' that is what they have in mind.
    Mr. Conaway. Could you focus more on the lack of 
identification with the Pakistanis' priorities for their own 
country? That particular comment, is that accurate?
    Ambassador Schaffer. Well, I think, for most Pakistanis, 
there are very gut-level economic issues that are the top 
priorities and that are probably greater priorities than the 
degree of religiosity that is or is not present in the society. 
Most Pakistanis are religiously conservative but not radical. 
Neither one of these people is a farmer. They have never had to 
make their living on two and a half acres of growing wheat or 
whatever, so it requires an effort of mind for them to relate 
to that level of economics. I think it is one they are 
perfectly capable of, but they do come from a different 
background, and there is a kind of instinctive difference 
there.
    Whereas, a lot of Pakistanis assume that whoever talks the 
most Islamic language is sympathetic. For either Musharraf or 
Benazir Bhutto, there is a weariness of the too-passionate 
sides of religion, because they have seen the abuses it can 
lead to. What this means is that, if you want to infuse in 
people the idea that religious extremism is dangerous, you have 
to find a way of articulating it that does not make it sound 
like you are anti-religion. I think there are people who have 
done this in Pakistan. I am not sure that has been very 
effectively done in the past few years, however.
    Dr. Weinbaum. On the economic side, if you are talking 
about the great mass of Pakistanis, there are economic issues--
above all, inflation. This is something that we, obviously, 
cannot contribute to helping them on. They also talk about 
corruption. Here, again, this is not something we can directly 
assist them with.
    As far as the frontier is concerned, you are absolutely 
right. This is desolate. I, too, have flown over that area, and 
not only are there innumerable places to hide; there are very 
few places to grow anything that is economically feasible.
    However, we should recognize the major source of income. If 
you are not talking about smuggling, there is remittances--that 
is, to send abroad your population to send back funds--and this 
is really where a great deal of it takes place. Now, that does 
not mean that they cannot be building roads and schools, but as 
long as they have in that area an ideological agenda, many of 
these people do not want schools, and they are afraid of roads 
because they know that is the road that the army is going to 
take to come at them.
    So we have a very difficult job, but a large part of it is 
that you have to recognize that, for all of these years, that 
area has been treated as a stepchild. It has never been 
developed. They have allowed it to fester as a backwood area 
because it suited the government's purposes. That way, they 
could keep these people at some distance, and they would not be 
troublemakers. The British started with it, and we have seen 
the Pakistanis continue with it.
    So it is a real uphill. There is not going to be a single 
crop--there is not going to be a single industry which is 
somehow going to turn this around.
    Mr. Haqqani. Without disagreeing with Ambassador Schaffer 
and Professor Weinbaum, let me just add one point--that the 
distinction needs to be made between General Musharraf and 
Benazir Bhutto.
    Benazir Bhutto, being a politician who does need votes and 
has engaged in electoral politics even though she has been in 
exile now for about eight years, does have the same exercise 
here. You know that you have to actually talk to the people. 
You have to get in touch with them. So, once she gets back, she 
will become aware of the concerns of the average man very 
quickly.
    On the economic side, it is the estimate of a very senior 
Pakistani economist that 65 million people in Pakistan live 
below the poverty line, which is they live on less than $1 a 
day; 65 million live just above the poverty line; and 30 
million can be described as well-to-do, which is the whole 
range from lower-middle class to the upper-middle classes and 
the very, very rich, the guys who actually flaunt their Rolls 
Royces and their Porsches.
    In that, Ms. Bhutto's party, the Pakistani People's Party 
(PPP), traditionally has found a base amongst the poor, even 
though she does not personally live the same lifestyle as that 
of her electorate. So the PPP--because, as a party, it is still 
intact--if she can somehow connect the concerns about extremism 
with the concerns of her base with economic injustices, then 
there is hope that she will be able to succeed a little bit 
better than General Musharraf in being able to bring the people 
on the agenda of anti-extremism.
    In the tribal areas, among other things, maybe irrigation 
systems, nurturing whatever water sources already exist; 
finding alternative means of employment, not necessarily in 
large-scale industry, but in cottage industry; creating new 
opportunities for people to get the skills that will get them 
into the remittance pool--but as skilled rather, than as 
unskilled workers--those are the things that are the options 
for changing the economy and the face of that region.
    The Chairman. The gentleman from Connecticut, Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    I would like to focus for a minute on the security along 
the border of Afghanistan and Pakistan. There was a trip a 
number of us made back in May, talking to some of the NATO 
troops, describing Taliban terrorists coming to and fro across 
the border, and there being almost a dysfunctional relationship 
between the Pakistan army, NATO, and Afghanistan's--whatever 
troops they have there. I mean, it seemed like there were not 
even communication systems established to talk about tracking 
people who were moving back and forth.
    Given the amount of money we are investing in Pakistan's 
military and, obviously, the commitment in Afghanistan, it just 
seems like there should be a better security arrangement with 
the Pakistani government about tracking what people are seeing 
with their own eyes coming over the borders.
    Dr. Weinbaum. You know, sir, there is a tripartite 
arrangement of the three militaries--the Afghan military, the 
U.S. forces operating on the border, as well as the 
Pakistanis--and there has been some success with this in 
sorting out differences here.
    But what you are talking about here is tracking across the 
border, and I think that that can only come about when, on both 
sides of the border, there is a much more effective security 
arrangement. There are innumerable places along that border 
where one can infiltrate, so that I do not think there is any 
way in which, even with the best of intentions, that the 
governments involved here are going to be able to stop that. 
You have to stop it from within. Once they get to the border, 
they are going to get across.
    Mr. Courtney. Well, it certainly seemed that the 
Afghanistan officials that we met with expressed a lot of 
frustration in terms of their interaction with the Pakistan 
government. So I get your point, but it just also seems that, 
you know, government to government, there should be a better 
arrangement than what exists right now.
    Ambassador Schaffer. You will hear frustration on both 
sides of the line. This whole issue could not be more difficult 
for both the Pakistanis and the Afghans, and they have tended 
to blame each other, rather than to focus together on how to 
fix the problem.
    This is one of the reasons that I urged in my testimony 
that the U.S. start trying to develop with Pakistan and with 
Afghanistan at least some elements of a common strategy for 
stabilizing the government in Afghanistan. Because, if you 
could start to fix the rather poisonous relationship between 
the two leaders, then you would have a much better basis for 
trying to find ways of cooperating across a porous border.
    Mr. Courtney. Well, I mean the arrests that took place in 
Germany this summer of the three terrorists who were clearly 
being trained in some part of Pakistan suggests that, again, 
all of the long-term economic development and all of the things 
that you have talked about here today obviously are important 
elements to the strategy, but, clearly, we have an immediate 
security issue here. I mean, if those guys were trained in 
Iraq, the political fallout from that would have been, I think, 
just overwhelming. I mean, for some reason, the fact that it 
was not in Iraq and was in a different part of the world seemed 
to get sort of brushed a little bit aside.
    The fact is, I mean, to me, it just seems like, in terms of 
the U.S. national security interests, the threat of being hit 
either here or in Europe emanates from the tribal areas of 
Pakistan. And it just does not seem like, with all of the money 
we are spending over there, it is too much to ask our 
government to be a little bit better, in terms of trying to get 
these security arrangements more functional.
    Mr. Haqqani. Sir, if I may say so, one of the things that 
the U.S. Government is not investing enough in is in building 
the civilian law enforcement capability of Pakistan.
    You see, the thing is that, to catch the kind of people you 
are talking about, the three people who are trained, you need 
law enforcement, rather than an Air Force with F-16 aircraft. I 
mean, you know, we have given them F-16 aircraft, but that is 
not going to solve this problem. This problem is going to be 
with gumshoes and local police work. And I think that that is 
an area that Congress could focus on, building Pakistan's law 
enforcement capability and making it better, so that people can 
be intercepted before they get out of Pakistan and while they 
are training there.
    To the extent that there are elements within the government 
of Pakistan who are either tolerant of or supportive of the 
extremists, I think a lot more straight talk is needed between 
the United States intelligence service, the Pakistani 
intelligence service, and the Afghan intelligence service. So 
far, the process of intelligence-sharing is one in which action 
does not always materialize on time.
    Ms. Curtis. I think you are absolutely right. There needs 
to be better coordination between NATO and the Pakistan 
government. I think that seems quite obvious, so I wholly 
endorse what you have said.
    I think part of the problem in dealing with Pakistan on 
these issues is that so much of it is sort of under the radar, 
and what is useful in terms of countering the terrorist threat 
may be politically unpopular. So there is a tendency to want to 
keep these issues below the radar, and on some of the issues 
where we do find Pakistani cooperation, perhaps it is not 
touted publicly.
    So this makes it very difficult, I think, to get to the 
heart of the matter. But I think you certainly have hit on 
something very important and something that should be pursued.
    The Chairman. The gentleman from South Carolina, Mr. 
Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    Thank you for being here today.
    I am really very appreciative of Pakistan as a longtime 
ally of the United States. I am very appreciative because, two 
weeks ago, I was at the Khyber Pass and saw the truck traffic 
into Afghanistan at Jalalabad. It is impressive to me to see 
the commerce that is going on. I am also very pleased that 
soon, if it has not already occurred, there will be truck 
traffic between India and Pakistan for the first time in 
decades. And as the co-chair of the India Caucus, I really want 
to see a stable, economically growing, and positive Pakistan.
    I have had the privilege in my service of seeing some of 
the good. Now, I visited with the earthquake relief several 
years in Muzaffarabad. It was so inspiring to see the young 
U.S. Marines. As Pakistani-Americans, they were speaking Urdu 
with the people, in providing relief.
    But in my last visit, I was there with Congressman 
Courtney, and I was reading some of the newspapers. And not to 
infringe on the freedom of speech, but we need to get a message 
out, because I was appalled that these newspapers that look 
very modern and progressive contained outright lies about our 
troops, about the United States--anti-American propaganda. It 
was so absurd that there was a column by Fidel Castro. That was 
just a joke, the thought that a totalitarian dinosaur would be 
resurrected to write absolute garbage about the American 
people.
    Again, not to infringe on the freedom of speech, but we 
really need to get information out. I have seen it firsthand. 
My National Guard unit, the 218th, is currently operating 1,600 
troops in Afghanistan, training the Afghan police, providing 
for humanitarian relief. There are great stories of helping 
provide health clinics, by opening schools, by providing wells, 
by helping develop roads, by helping develop crops. All of this 
is such a positive story.
    So, Mr. Haqqani, how can we get this message out and 
counteract Fidel Castro?
    Mr. Haqqani. Congressman, when I was a child growing up in 
Pakistan, I was somebody who used to go to the American 
library. That is where I learned my English. That is where I 
learned my major ideas. I came from a poor family. I could not 
afford a very expensive English school, elite school. I grew up 
reading the biographies of America's Founding Fathers. I knew 
the Declaration of Independence by the time I was 15. And the 
first time I came to the United States was because I beat the 
entire American Embassy staff at a game of Trivial Pursuit 
about American history, and the ambassador decided that I was 
the appropriate person to be sent here under the International 
Visitor Program.
    The point I am trying to make is that the U.S. Government, 
despite complaining and feeling that this is not happening, is 
no longer investing in those kinds of programs with the same 
kind of vehemence as it used to do during the Cold War. For 
security reasons, the American libraries no longer exist. The 
United States information service was dismantled.
    So, as far as the Pakistani media is concerned, Fidel 
Castro and his embassy manage to get his speech or his article 
to the newspaper. Most of these newspapers in Pakistan--now 
that there is complete press freedom in Pakistan, there is a 
lot of diversity. They do not have the resources to find the 
materials. If we had the means to get more and more ideas and 
materials out and if more Pakistani journalists had access to 
all of you, they would be able to get more ideas that are 
different from the ideas that are being spread there.
    Security has become a concern. Most American diplomats do 
not get out of the embassy compound or outside of Islamabad. 
They do not do the small town. The day went when Ambassador 
Schaffer, as an officer of the U.S. embassy, could actually go 
to a small town and speak to the local school. Those days are 
gone, so we need to create some kind of mechanism.
    And this is not just for Pakistan. It would apply to 
Afghanistan. It would apply to Iraq. It would apply to other 
Muslim countries, as well.
    Mr. Wilson. Well, I just want to thank all of you for being 
here. And as time concludes, we need to get the positive 
message out of what we are proposing to do and doing in 
Afghanistan and what we hope to be positive for the people of 
Pakistan.
    Thank you very much.
    I yield the balance of my time.
    The Chairman. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you, Mr. Chairman.
    Thank you for being here.
    Ms. Curtis, my question has to do with a comment you made 
earlier in the hearing. You said India was trying to gain 
influence in Afghanistan, or it was the Pakistani perception 
that they were trying to do that, that they were being 
encircled.
    Could you please elaborate on that?
    Ms. Curtis. Yes. I think, if we are going to be able to 
stabilize Afghanistan and to ensure that the Taliban does not 
again gain influence in the country, we are going to have to 
look at the issue, to a certain extent, from Pakistan's 
perspective and understand their security perceptions of the 
region and understand their historical animosity with India.
    Where they want a stable Afghanistan, they are seeking a 
government that is not anti-Pakistan either, so they become 
very sensitive to issues with India's opening consulates and 
pursuing development activities, which are, obviously, 
legitimate activities.
    I would argue from the U.S. perspective that India's role 
can be quite positive. Being a democracy, they provide a good 
example for Afghanistan, which is trying to develop itself into 
a democracy.
    I am saying that we need to understand where Pakistan is 
coming from if we are going to get them on board with our 
strategic perception of the region. That is really what we have 
to do. We have to get ourselves on the same sheet of music, in 
terms of the importance of stabilizing Afghanistan and the fact 
that the Taliban will not be allowed to have influence in the 
government.
    And we need the Pakistanis to take a more proactive role in 
undermining Taliban ideology. We can argue back and forth about 
who somebody in the government might be supporting or who they 
are not, but if we actually saw Pakistan take steps to actively 
undermine the ideology itself, then we, I think, could be more 
assured that they were, in fact, on the same sheet of music as 
us.
    Ms. Shea-Porter. Can you tell me what India is doing, 
exactly? You said they are opening up consulates and they are 
working on some development projects. By the invitation of 
Afghanistan or under what auspices?
    Ms. Curtis. Yes. They have pledged funding for the new 
parliament building. They are involved in the construction of a 
highway. And this is all at the invitation of the Karzai 
government. There is a new program where they offered to 
educate 1,000 Afghans, to provide them scholarships to Indian 
universities. Now, Pakistan came forward with the same offer, 
and the Karzai government refused it.
    So, yes, I think we have a situation where there is some 
insecurity on Pakistan's part about the relationship between 
the Indian government and the Karzai government, and that we 
just need to understand it more fully.
    And that is why I have argued extensively in my written 
testimony that the U.S. needs to get more proactively involved 
in facilitating better overall relations between Pakistan/
Afghanistan at the same time as Pakistan/India and start to 
encourage regional initiatives where each country has a 
different strategic perception of the region based on economic 
cooperation, political reconciliation, and stability, so that 
we get out of this 1990's mentality of vying for political 
influence in Afghanistan or the dispute over Kashmir. It is a 
very ambitious effort, but I think we really need to start 
pursuing it.
    Ms. Shea-Porter. Thank you.
    I do have another question, please.
    Dr. Weinbaum, or anybody who would like to answer this, how 
much is the U.S. involved? And in terms of building up and 
assisting the kinds of programs that we just heard Ms. Curtis 
mention, are we doing the same kind of work, and is it the same 
level that we have done before in the past for Afghanistan and 
for Pakistan?
    We were talking about how much involvement there is in 
Pakistan, for example, with the American libraries. What are we 
doing now to help them? And do we have non-governmental 
organizations there and very visible to the Pakistanis, as 
well?
    Dr. Weinbaum. With respect to your last comment, there are 
non-governmental organizations working there, but the situation 
has reached such a point where even the best of the non-
governmental organizations are viewed with suspicion.
    For example, we have to be very careful in that, as we come 
in to support education, that this is not viewed, as it is in 
some parts of Pakistan, as an effort on the part of the United 
States to take them away from Islam, to perhaps impose on them 
our Western values. So, much of what we do in our assistance 
has to be calibrated very carefully. It has to be very 
sensitive to the fact that it is easy, under this particular 
environment, to have it misconstrued.
    We do have an accelerated program here of helping in the 
educational field. As I said, we have to be very careful about 
that. We also have moved rather recently to help in the health 
field. It is essentially, though, a problem in that, whatever 
we are doing, somehow it is never registered the way it should 
be.
    Ms. Shea-Porter. We need to be more visible as we do these 
things?
    Dr. Weinbaum. That was the beauty of the earthquake, 
because there it was; it was visible, it was upfront, and it 
received a lot of publicity.
    Coming back to this question about the Pakistan newspapers, 
the problem is that the papers are reflecting what is going on 
in the rest of the society. They are, by and large, 
perpetuating some of these myths that are going on about the 
United States. And this can happen with free press.
    Ms. Shea-Porter. Thank you very much.
    The Chairman. Thank you.
    I might announce that the members-only top-secret briefing 
that is scheduled in this room for 2 o'clock has been delayed 
until 2:30 this afternoon, and members should be advised.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    I appreciate you all's very in-depth discussion today.
    The American people, I believe, care deeply about the 
people of Pakistan and their aspirations to raise families, to 
develop economically, and to be secure. They have every right 
to be a player in the neighborhood and to be a proud nation. We 
express that will through our elections, which we have coming 
up next year.
    So I want you to go ahead to November 15th of 2008. Your 
phone rings, and it is the President-elect, and they say, ``I 
saw you on C-SPAN some time ago, and I want you to tell me the 
top three, four, or five things that I need to be thinking 
about in these next few weeks, as I put together my 
Administration and personnel and the foreign policy objectives 
we need to take for Pakistan.''
    If we could start with you, Ms. Curtis. I am the last 
person standing between the chairman and lunch, so try to be 
brief if you could. Ms. Curtis, I know you have a list of 
things, but if you could, prioritize the kinds of things that 
you would tell the President-elect about what they ought to 
pursue.
    Ms. Curtis. Well, I would hope that the problem in the 
tribal areas that we have discussed, hopefully in a year, has 
been--at least we have begun to see some changes, in terms of 
there not being the dangerous safe haven that we see there 
today. However, if that issue is still there, I think that has 
to be at the top of our agenda, ensuring that this is not a 
safe haven, and we have to convince the Pakistanis to work with 
us in cooperative efforts.
    You know, obviously, the Pakistanis have gone back on the 
military offensive in the region, and they are taking actions. 
But I do not think this alone is going to deal with the 
seriousness of the problem that we face. And it has to be a 
cooperative effort, where we understand that the persistence of 
a terrorist safe haven in that region does not benefit either 
one of us.
    You know, I would encourage Indo-Pakistani dialogue. I 
would highlight how fundamental that is to ensuring our overall 
goals in South Asia. Again, I would highlight the need to 
encourage Pakistan to take a proactive effort in undermining 
the ideology of the Taliban. There seem to still be differences 
between the U.S. position and the Pakistan position over the 
future of Afghanistan and what role the Taliban would play. The 
Pakistanis seem to hold out the position that the Taliban will 
play some kind of a role in a future Afghanistan, and I think 
we have to make it clear that the extremist ideology that the 
senior Taliban leadership holds does not have a place in 
Afghanistan; we are encouraging a pluralistic democracy. And 
there have to be efforts to peel away some of the local, you 
know, guns-for-hire that may be with the Taliban for money but 
who do not necessarily subscribe to the ideology.
    You know, getting those elements to peel off and become 
part of the political process, sort of a bottom-up approach, I 
think, is the direction we need to go. But giving power to the 
senior Taliban or somehow thinking that through negotiations we 
can make them part of the system, I think, is naive and is not 
something that should be pursued.
    Dr. Snyder. Thank you.
    Mr. Haqqani.
    Mr. Haqqani. I think the first thing would be to assure the 
Pakistani leadership that the United States is a long-term 
partner of Pakistan and that Pakistanis do not need to create 
or keep alive problems simply to get American attention.
    Second, after having convinced them that the U.S. is our 
partner and that ``we are there for the long haul for you'' and 
``do not worry'' and ``do not think, if the Taliban is over, 
then your relationship with us is over,'' help us finish them 
off, help us finish off al Qaeda. Then focus on the elimination 
of terrorism and terrorist safe havens, because these are 
interlinked. As long as the Pakistanis feel insecure about 
having a long-term commitment from the U.S., they also will 
have an interest in keeping alive the problem, so that then 
they can be the ones who will help the United States in solving 
the problem. And that becomes a self-perpetuating cycle.
    Third, democracy and civilian control over the military 
matters. The United States, historically, has had an attitude 
that, ``It does not matter to us whether you are ruled by them. 
We would like you to be democratic, but if you cannot get 
there, well, we will deal with the military, and we will keep 
pumping money into a military regime to bolster it.'' I think 
it is important that Pakistan's internal dynamic changes, and 
the only way Pakistan's internal dynamic is going to change is 
if Pakistan becomes a functioning democracy with full civilian 
control over the military, rather than the military being an 
institution totally on a tangent, working on its own agenda.
    The fourth is Pakistan's regional problems. I think----
    Dr. Snyder. I am sorry. Pakistan's what?
    Mr. Haqqani. Pakistan's regional ambitions and problems. I 
think that the United States has a role to play in bringing 
Pakistan and Afghanistan closer and also in ensuring that 
Pakistan and India continue along the road of mutual dialogue, 
especially in the Pakistan-Afghanistan equation.
    Now that they have one government that is close to the 
United States and that is supported by the United States, I 
think more needs to be done than the famous one-time meeting 
between President Karzai and General Musharraf that was 
sponsored by President Bush. I think the next President of the 
United States should do something more, and whoever is leading 
Pakistan in November 2008 and whoever is leading Afghanistan in 
2008 should actually be brought together in a process that 
reassures Pakistan that Afghanistan is not going to become part 
of a movement against Pakistan in collusion with India, that 
Afghanistan has its own aspirations, and has a right to those 
aspirations and that Pakistan and Afghanistan can be very close 
friends and neighbors.
    If we do that, then maybe the interest inside Pakistan to 
keep alive extremism as a state policy will diminish, and then 
the few extremists who are alive and surviving can be dealt 
with through a mixture of military force, law enforcement, and 
incentives to buy them off.
    Thank you, sir.
    Dr. Weinbaum. I believe that the priorities have already 
been very nicely laid out here.
    I would also stress, as Professor Haqqani has, the need to 
establish our reliability. So much of the thinking in Pakistan 
dwells on the fact that, as soon as our interests in the region 
are somehow satisfied, that we will, as we have in the past, be 
off. And therefore, what they must do, and particularly with 
regard to Afghanistan, is they must have a reserve strategy. 
And this is the heart of a lot of the problem here that the 
Afghans have and the belief that somehow Pakistan, especially 
if the United States demonstrates that it has a short-term 
interest in Afghanistan and that the United States and the 
international community will be out of there--that, therefore, 
Pakistan has to establish some kind of buffer zone with 
Afghanistan. It is very important that they be disabused of 
that idea.
    I also would agree that democracy is something we have to 
convince them we really care about. And as Professor Haqqani 
and Ms. Curtis have indicated, they do not believe that now, 
but it is worth our interest, because this is the one place in 
the Muslim world where I would put my money on democracy. You 
do not have to teach them what democracy is. Now, they have not 
experienced much of it, but it is remarkable how the Pakistani 
people really aspire to what we would call a democracy. And it 
will not be exactly like ours, of course, but it is something 
that we recognize as being something we could praise.
    I want to say also--and this is something that the new 
President, whoever that individual might be, has to recognize--
that there used to be a time when Pakistan was very much 
focused on its own interests. Today, Pakistan knows--everyone, 
practically, in Pakistan, because of the media; there are so 
many television channels--they know what is going on in the 
region and in the rest of the world. Our policy, as it plays 
out in the rest of the world, will have influence on what 
happens, whether it is the Arab-Israeli conflict, Lebanon, 
Iraq, wherever. We are going to be judged by what we do 
elsewhere, not only by what we do in Pakistan, and that is a 
change.
    So I think that, whoever this new President is going to be, 
we do know this, that our relationship with Pakistan is going 
to be critical to our future security. They cannot do very well 
without us; we cannot manage without them.
    The Chairman. Following through on a thought of Dr. 
Snyder's a moment ago, below the surface, what is the animosity 
between the leadership of Afghanistan and the leadership of 
Pakistan?
    Ambassador Schaffer. There has been historically a bad 
relationship between the two, basically for two reasons.
    One is Afghanistan has kind of an ambiguous place in 
Pakistan's ethnic politics. The ethnic group that has 
historically dominated in Afghanistan has close relatives on 
the Pakistani side who have felt themselves kind of out in left 
field, with respect to the rest of Pakistan. And so there has 
been sort of a built-in tension there.
    The other and probably the more compelling reason is that, 
historically, Afghanistan has had a very close relationship 
with India. If you look at a map, you can see why this has left 
generations of Pakistanis, especially in the army, feeling like 
they are in the middle of a squeeze play.
    At the moment, you have something else that has been added 
to that. Hamid Karzai, who is the President of Afghanistan, is 
a man who, before 2001, had reasonably decent relationships in 
Pakistan, but he came to power as part of the implosion of the 
Pashtun-dominated Taliban, and he came to power with the people 
who had been referred to as the ``Northern Alliance,'' who had 
strong support from India and from Russia during the years when 
the Taliban were in control of Afghanistan. So, right off the 
bat, anyone who had them as his allies was going to be looked 
on with enormous suspicion in Pakistan, and Karzai was no 
exception.
    When you then got into the actual business of governing 
Afghanistan, he had a very tough agenda. He started out with, 
basically, no instruments of power. He did not have an army; he 
is starting to develop one now. He did not have roads that he 
could use to get foreign aid out into the boondocks. And he had 
many vulnerabilities.
    And as the insurgency gained force--and the insurgency was 
spearheaded by people who had been Pakistan's allies for many 
years--he came to look on Pakistan as responsible for his 
problems. The Pakistanis, on the other hand, came to look on 
him as a totally feckless leader who could not get his act 
together in Afghanistan.
    So this, coupled with a difficult history, meant that each 
of the leaders felt he had lots of reason to blame the other 
for his problems. And it is always easier to blame somebody 
else.
    The Chairman. I have one last question. I am quite 
interested in professional military education, particularly for 
our war colleges, both intermediate and senior, here in our 
country. Would you assess for us the IMET program toward 
Pakistan? That is International Military Education and 
Training. I think we picked it up when we went several years 
without inviting them to our intermediate and senior war 
colleges, but they are attending now, is my understanding.
    Could you assess that for us, please?
    Ambassador Schaffer. I am going to give you a political 
take on it, because I cannot get into details about what 
courses they have taken. But from a point of view of our 
overall relations with Pakistan and with the Pakistan military, 
this is one of the most important contact points that we have 
had. It has been professional, military to military. The U.S. 
training institutions have provided training that the Pakistani 
military value enormously.
    The Chairman. Those of us, Ambassador, who are interested 
in professional military education draw a distinction between 
training and education. I just thought I would throw that in.
    Go ahead.
    Ambassador Schaffer. I would argue that both of those are 
very valid distinctions, but both of those have been essential 
in building up the professional respect, understanding, and 
sense of a common professional cause that exists between the 
United States and the Pakistani military.
    The Chairman. Would you increase the IMET program?
    Ambassador Schaffer. Yes, I would, because I think this is 
exactly the kind of contact that is constructive in terms of 
the military role of the Pakistan military but does not 
encourage them to expand their political role.
    Mr. Haqqani. Sir, I have been looking at this for a while, 
and I think that the program, as it is structured right now, is 
more in the direction of training than in the direction of 
education. For example, I have spoken at the Army War College--
--
    The Chairman. You have spoken where?
    Mr. Haqqani. I have been invited to speak at the Army War 
College.
    The Chairman. Oh, yes. That would be Carlyle.
    Mr. Haqqani. Carlyle.
    The Chairman. You bet.
    Mr. Haqqani. I have been there twice in the last two years. 
There is always one Pakistani military officer there.
    I think, in fact, given the situation and the importance of 
Pakistan, perhaps the positions for Pakistan available for that 
level of education need to be increased, as does--the head of 
SOCOM, I know, has been talking about increasing educational 
exchanges. And I think that that would be something that would 
be--SOCOM is the Special Operations, and they would like to do 
that.
    I think that the other educational facilities need to be 
expanded, both in terms of the number of positions available 
for Pakistanis and the level at which they come. Because, you 
know, one person coming a year does not solve the problem, 
given the size of the Pakistani military and the significance 
and the importance of it.
    The Chairman. If you do that, would you have to invite a 
comparable number from India?
    Mr. Haqqani. You may have to do that, but that may not be a 
bad thing either, because, after all, India is also an 
increasingly important country. And it may be in the interest 
of the United States to have four generals in the Indian Army 
who have been trained in the United States, as opposed to one--
and the same goes for the Pakistani side--trained and educated.
    Dr. Weinbaum. Sir, let me just add that there is a 
reciprocal to this, as well, and that is having American 
officers serve or attend educational institutions in Pakistan. 
The Staff College at Quetta, for example, has been a place 
where we have sent people in the past. Obviously, it was also 
suspended for a long time. We have just started now to send 
people over there. This is very important because the 
possibility of having Americans there at this point is a way of 
spreading what we are about to many, many more Pakistanis who 
would otherwise not be able to have the exposure to the United 
States. So there ought to be a reciprocal element to it.
    The Chairman. Well, I appreciate that. I am very familiar 
with the international program at Fort Leavenworth, Kansas, 
which, of course, is the intermediate war college for majors 
and their comparable ranks. And I am very appreciative of your 
thoughts.
    Well, ladies and gentlemen, thank you for your patience and 
for your excellent testimony and for your expertise. We are 
most appreciative.
    Thank you.
    [Whereupon, at 1:25 p.m., the committee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                            October 10, 2007

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 10, 2007

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  <all>

</pre></body></html>
